<html>
<title> - CREATING A CLIMATE RESILIENT AMERICA: REDUCING RISKS AND COSTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    CREATING A CLIMATE RESILIENT AMERICA: REDUCING RISKS AND COSTS

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD
                           NOVEMBER 20, 2019
                               __________

                           Serial No. 116-15
                           
                           
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


                            www.govinfo.gov
   Printed for the use of the Select Committee on the Climate Crisis
   
   
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
39-820                    WASHINGTON : 2020    
   
   

                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                     One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                              ----------                              

                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
    Opening Statement............................................     1
    Prepared Statement...........................................     3
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
    Opening Statement............................................     4

                               WITNESSES

Hon. W. Craig Fugate, Principal, Craig Fugate Consulting LLC; 
  Former FEMA Administrator
    Oral Statement...............................................     6
    Prepared Statement...........................................     8
Hon. Alice C. Hill, Senior Fellow for Climate Change Policy, 
  Council on Foreign Relations
    Oral Statement...............................................    11
    Prepared Statement...........................................    13
Chad Berginnis, Executive Director, Association of State 
  Floodplain Managers
    Oral Statement...............................................    16
    Prepared Statement...........................................    18

                                APPENDIX

Questions for the Record from Hon. Kathy Castor to Hon. W. Craig 
  Fugate.........................................................    43
Questions for the Record from Hon. Kathy Castor to Hon. Alice C. 
  Hill...........................................................    45
Questions for the Record from Hon. Kathy Castor to Chad Berginnis    46

 
     CREATING A CLIMATE RESILIENT AMERICA: REDUCING RISKS AND COSTS

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2019

                          House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:32 p.m., in Room 
1334, Longworth House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Bonamici, Levin, Casten, 
Graves, Carter, and Miller.
    Ms. Castor. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. You know, decisions are 
made every day about where and how to build, what home to buy, 
and how to prepare for the impacts and costs of the climate 
crisis, and, today, we will talk about the kinds of climate 
risk information standards and tools that communities need to 
reduce the risks and costs of climate change, including more 
extreme floods and wildfires.
    So I will recognize myself for 5 minutes for an opening 
statement. Last week, the committee heard from members directly 
about the impacts of the climate crisis on the communities they 
represent all across America, and today we will examine the 
Federal Government's role in helping communities reduce the 
risks and costs of climate fueled disasters. States, cities, 
and Tribes across the country are taking bold action to adapt 
to climate change. They need a strong Federal partner, whether 
it is through scientific information or technical assistance 
tools, the Federal Government has an opportunity to help 
communities grow stronger in the face of the climate crisis 
with a particular eye to communities that are on the front 
lines.
    Every community is different, which is why the best role 
for the Federal Government is to empower local communities to 
give them the right tools and data to build strong and to 
rebuild smart. The Federal Government also can lead by example 
by requiring that federally funded projects avoid areas that 
are prone to the worsening effects of the climate crisis. One 
thing we can't do is move backwards.
    In 2017, President Trump decided to rollback a Federal 
flood standard meant to protect communities from damage. Ten 
days later, the necessity of those protections was made evident 
when Hurricane Harvey struck Texas in the Gulf Coast causing 
massive loss of life and property. Across the Nation, more than 
20 states and hundreds of communities have adopted higher 
standards to reduce flood losses through establishing higher 
elevation requirements or limiting development in flood-prone 
areas.
    Now the Federal Government must modernize the National 
Federal Flood Standards to ensure the resilience of federally 
supported development, redevelopment, and rebuilding. To help 
local decisionmakers better protect their citizens, we must 
also make sure they know how climate change is increasing risks 
in their communities. Whether it is flooding, wildfires, or 
extreme heat, they need to know what to anticipate as well as 
the best ways to prepare their residents for a changing 
climate.
    We must also establish clear, uniform national standards 
that are grounded in robust climate science. With better 
guidance, local officials can make better decisions about where 
to build homes, schools, and hospitals. Maps that integrate 
climate risk will help us make better decisions today so our 
buildings can meet the demands of the future. As more and more 
climate risk data becomes available, the Federal Government 
will need to develop new maps to take into account the 
increasing effects of the climate crisis, including future sea 
level rise and stronger storms.
    We also need to better understand how the risk of wildfires 
threatens communities, forests, and Federal assets. Experts 
across the country are working on rebuilding and landscape 
designs to help families and communities respond to the growing 
risk of wildfires, but that research doesn't always prompt 
better choices at least at the scale needed to reduce wildfire 
losses. We can change that. We can enhance our current maps, 
codes, and standards in order to protect Americans against 
floods and wildfires, we can equip local governments with the 
tools they need to build resilient infrastructure, and we can 
make sure the Federal Government leads by example.
    We need to act quickly. Natural disasters in the United 
States have become more frequent and more severe and more 
costly over the past two decades. In fact, since the year 2000, 
flood-related disasters in the United States caused more than 
$845 billion in losses, making it the costliest disaster threat 
in the Nation, and during the last three hurricane and wildfire 
seasons, our country experienced $330 billion in damages from 
six hurricanes as well as over $40 billion from eight 
wildfires.
    But here is the good news: Through serious climate action, 
we can reduce these costs. Resilient communities attract 
investments, reduce dependence on Federal disaster aid, and 
protect their public credit ratings, which can reduce the cost 
of capital. Resilient communities can make sure land use 
decisions avoid flood and wildfire-prone areas. They can adopt 
and enforce good codes and standards. They can make sure 
residents are well prepared for storms and wildfire seasons. 
They just need our help to get there.
    The solutions we discuss today will uplift communities, 
protect valuable natural resources, and reduce the cost of the 
climate crisis. I look forward to hearing from this great panel 
of experts to help guide our decisionmaking. And at this time, 
I will recognize the ranking member, Mr. Graves, for 5 minutes.
    [The statement of Ms. Castor follows:]
                              ----------                              


              Opening Statement (As Prepared for Delivery)

                    Rep. Kathy Castor (D-FL), Chair

           U.S. House Select Committee on the Climate Crisis

   ``Creating a Climate Resilient America: Reducing Risks and Costs''

                           November 20, 2019

    Last week we heard from Members directly about the impacts of the 
climate crisis on the communities they represent all across America. 
Today we'll examine the federal government's role in helping 
communities reduce the risks and costs of climate-fueled disasters.
    States, cities and tribes across the country are taking bold action 
to adapt to the changing climate. They need a strong federal partner. 
Whether it's through scientific information on what the future holds, 
climate risk data, resilience standards or technical assistance tools, 
the federal government has an opportunity to help communities grow 
stronger in the face of the climate crisis--with a particular eye to 
communities that are on the front lines.
    Every community is different. Which is why the best role for the 
federal government is to empower local communities, to give them the 
right tools and data to build strong and rebuild smart.
    The federal government also can lead by example, by requiring that 
federally-funded projects avoid areas that are prone to the worsening 
effects of the climate crisis.
    One thing we can't do is move backwards. In 2017, President Trump 
decided to roll back a federal flood standard meant to protect 
communities from damage. Ten days later, the necessity of those 
protections was made evident when Hurricane Harvey struck the Texas 
Gulf Coast, causing massive loss of life and property.
    Across the nation, more than 20 states and hundreds of communities 
have adopted higher standards to reduce flood losses, through 
establishing higher elevation requirements or limiting development in 
flood-prone areas. Now the federal government must modernize the 
national federal flood standards to ensure the resilience of federally-
supported development, redevelopment, and rebuilding.
    To help local decision-makers better protect their citizens, we 
must also make sure they know how climate change is increasing risks in 
their communities. Whether it's flooding, wildfires or extreme heat, 
they need to know what to anticipate, as well as the best ways to 
prepare their residents for a changing climate.
    We must also establish clear, uniform national standards that are 
grounded in robust climate science. With better guidance, local 
officials can make better decisions about where to build homes, schools 
and hospitals.
    Maps that integrate climate risk will help us make better decisions 
today, so our buildings can meet the demands of the future. As more and 
more climate risk data becomes available, the federal government will 
need to develop new maps that take into account the increasing effects 
of the climate crisis, including future sea-level rise and stronger 
storms.
    We also need to better understand how the risk of wildfires 
threatens communities, forests, and federal assets. Experts across the 
country are working on building and landscape designs to help families 
and communities respond to the growing risk of wildfires. But that 
research doesn't always prompt better choices, at least at the scale 
needed to reduce wildfire losses.
    We can change that. We can enhance our current maps, codes and 
standards in order to protect Americans against floods and wildfires. 
We can equip local governments with the tools they need to build 
resilient infrastructure. And we can make sure the federal government 
leads by example.
    We need to act quickly. Natural disasters in the United States have 
become more frequent, more severe, and more costly over the past two 
decades. In fact, since 2000, flood-related disasters in the United 
States caused more than $845 billion in losses, making it the costliest 
disaster threat in the nation. During the last three hurricane and 
wildfire seasons, our country experienced $330 billion dollars in 
damages from six hurricanes, as well as over $40 billion from eight 
wildfires.
    Here's the good news: through serious climate action, we can reduce 
these costs across the nation. Resilient communities attract 
investments, reduce dependence on federal disaster aid, and protect 
their public credit ratings, which can reduce the cost of capital. 
Resilient communities can make sure land-use decisions avoid flood and 
wildfire-prone areas. They can adopt and enforce good codes and 
standards. They can make sure residents are well-prepared for storms 
and wildfire seasons. They just need our help to get there.
    The solutions we discuss today will uplift communities, protect 
valuable natural resources, and reduce the costs of the climate crisis. 
I look forward to hearing from our great panel of experts.

    Mr. Graves. Thank you, Madam Chair. I want to thank you all 
for being here today. I am very much looking forward to your 
testimony. We have votes going on right now in the 
Transportation Committee where I am supposed to be, and I have 
a bill on the floor in a little while so I am going to be 
bouncing around a bit, but this topic, I think, while the chair 
and I don't see eye to eye on everything, almost everything, 
though, right? This is an area where we do have very strong, I 
think, consensus among the members of the committee. No matter 
what we do with emissions, we are going to continue to see our 
seas rise and our coastal communities being more vulnerable. As 
we have discussed in this committee before, you can look around 
at the coastal counties, parishes, and boroughs around the 
United States and those only constitute about 10 percent of the 
land area of this country, yet over 40 percent of the 
population lives there.
    With sea rise, as the chair noted, increasing disaster 
response and recovery cost, it is not an option, I think, with 
that percentage of the population living there and the number 
going up, for us to just say, well, you all are going to have 
to move or there is nothing we can do. The reality in my 
opinion is that we have got to get good at resilient living. We 
have got to get good at doing that. We also need to make sure 
that we are being very thoughtful about new development. A 
recent analysis by the Congressional Budget Office found that 
the majority of increased disaster costs were actually 
attributable to development in those areas, meaning we are 
developing in areas that are vulnerable and not being 
thoughtful about how to do it.
    Now, President Obama's executive order related to 
floodplain rebuilding and standards was mentioned by the chair 
earlier, and I have to say that I actually did not support that 
and I did support the withdraw, but let me clear: I supported 
the intention of it, but I think it was the right move to 
withdraw and think a little bit more about how to properly do 
it because of this. The folks that I represent in south 
Louisiana, we drain two-thirds of the United States, two-
thirds. When folks send us more water, we become more flood-
prone or more vulnerable. Hurricanes are exacerbated, the 
impact are exacerbated by the 2000 square miles of coastal land 
loss we have experienced, not because of anything we did, 
because of what the Corps of Engineers did.
    So, if you were to apply that executive order, you had some 
parishes in Louisiana, where I think they said 80 percent of 
the parish you couldn't live there. That is not right. What you 
have to do--and Administrator Fugate and I have had this 
discussion. You have got to integrate an offense and a defense 
strategy into the Flood Insurance Program. For example, let's 
look at the fact we have $100 billion backlog in Corps of 
Engineer projects, many of which are designed to address 
resiliency. How are we out there talking about telling 
communities they can't live in certain areas whenever there is 
a Corps of Engineers' authorization that has been sitting out 
there in the books for decades, and we can't figure out how to 
move forward on it? How are we going to move in a direction of 
resiliency when we made so much progress last year with the 
Disaster Recovery Reform Act, with all of the funds through the 
Community Development Block Grant Disaster Recovery Flood 
Mitigation program through the Corps of Engineers, construction 
general program last year record funds and then move into this 
year whenever we are doing a Community Development Block Grant 
Disaster Recovery bill--just this week, we put prohibitions in 
there and say that you can't use the funds on authorized Corps 
of Engineer projects that actually make your community more 
resilient. It doesn't make sense. It doesn't. And, obviously, 
not thoughtful policy has been progressed by this House within 
the last few months.
    This is an area where we should all be working together. 
This isn't a fight over who is right, who is wrong. We all 
agree. We all agree that our coastal communities are more 
vulnerable. We all agree that adaptation measures make sense. 
We all agree in bipartisan support for the legislation last 
year, for the appropriations last year, bipartisan support, but 
we have got to continue building upon that progress because the 
district that the chair represents, the district that I 
represent, the district that Mr. Levin represents, we represent 
coastal areas, coastal communities, people that are vulnerable, 
and you will not find a divide among us in terms of us wanting 
to make sure--do you have a coast?
    Mr. Casten. No.
    Mr. Graves. I didn't think so. A little coastal envy over 
there. I see it. You come vacation in our districts. It is 
fine. You can keep coming. But we need to make sure that we are 
being thoughtful and that all the policies of this Congress are 
continuing to move--and I think this committee is a great place 
to do it--continuing to move in this direction of ensuring that 
we can have resilient communities, resilient ecosystem, but 
that we have that offense and defense at the table and aren't 
just coming in and drawing areas and say ``You can't live 
here.'' I think that there is a smart way of doing it. I think, 
in some areas, we are going to have to tell people that you 
can't populate these areas, and we have done that in South 
Louisiana, but I think that we have got to be very thoughtful 
using all the tools in the toolbox as we move forward. Looking 
forward to you all's testimony.
    And I yield back the time that I don't have.
    Ms. Castor. Thank you, Mr. Graves.
    Without objection, members who wish to enter opening 
statements into the record may have 5 business days to do so.
    Now, I want to welcome our witnesses.
    Welcome, Craig Fugate. He was the administrator of the 
Federal Emergency Management Agency for nearly 8 years in the 
Obama administration and also served as the Florida Emergency 
Management Director under Governor Jeb Bush. He is more popular 
in Florida than a rock star. Maybe not Jimmy Buffett, but he 
currently provides senior level advice and consulting in the 
area of disaster management and resiliency policy.
    Alice Hill is the Senior Fellow for Climate Change Policy 
at the Council on Foreign Relations. Judge Hill's work focuses 
on responding to the risks and consequences of the climate 
crisis. Prior to joining the Council on Foreign Relations, she 
served as Special Assistant to President Obama and developed 
national solutions as Senior Director for resilience policy for 
the National Security Council staff.
    Chad Berginnis is the Executive Director for the 
Association of State Floodplain Managers and previously worked 
in the Ohio floodplain management program and was Ohio's State 
hazard mitigation officer. He is recognized as an expert in 
floodplain management with more than 25 years of experience in 
natural hazard management, flood loss reduction, and land-use 
planning.
    Without objection, the witnesses written statements will be 
made part of the record.
    With that, Mr. Fugate, you are now recognized to give a 5-
minute presentation of your testimony.

   STATEMENTS OF THE HONORABLE W. CRAIG FUGATE, CRAIG FUGATE 
CONSULTING LLC, FORMER FEMA ADMINISTRATOR; THE HONORABLE ALICE 
   HILL, SENIOR FELLOW FOR CLIMATE CHANGE POLICY, COUNCIL ON 
  FOREIGN RELATIONS; AND CHAD BERGINNIS, EXECUTIVE DIRECTOR, 
           ASSOCIATION OF STATE FLOODPLAIN MANAGERS.

           STATEMENT OF THE HONORABLE W. CRAIG FUGATE

    Mr. Fugate. Well, thank you, Chair Castor and Ranking 
Member Graves, and the other members of the committee. First of 
all, I need to acknowledge that, you know, when you leave 
Federal Government and you are by yourself, you don't have much 
of a support system, so I did enlist some help in getting ready 
for this hearing. Lars Anderson, Blue Dot Strategics, I worked 
with very closely, and we worked with The Pew Charitable Trusts 
on flood policy. So, full disclosure, I do work for those 
folks, but my space and area that I really have focused on is 
asking the question, why are disaster costs going up 
exponentially?
    We are not necessarily seeing more disasters, but the 
impacts of the disasters have been climbing to the point where 
the General Accounting Office has now put climate change 
impacts, particularly the cost of disaster, on the high risk 
list. If we talk about the $850 billion, which are both direct 
and indirect, the General Accounting Office points out, since 
2005, almost half a trillion dollars in direct Federal funding 
has gone to disaster response. And I like to remind people that 
those costs are uninsured losses. FEMA does not pay for insured 
losses. They only pay for uninsured losses. And as this 
committee wrestles with how do we build resilience, I think we 
need to answer a fundamental question: Why did the Stafford Act 
see a disincentive in maintaining insurance in local- and 
government-owned buildings at the state and transfer that risk 
to the taxpayer? Think about it. Every time you see these big 
FEMA disaster dollars going out the door, it is either because 
families didn't have insurance or were underinsured or and the 
big dollars are the massive amounts of money that go out 
because local and State governments are self-insured, which is 
really not insurance. It is a game they play that says, if it 
is really bad, we hope somebody else will bail us out at 75 
percent on the loss.
    And because FEMA's program under the Stafford Act goes back 
to the first dollar, there has been no virtual increase in 
state and local spending on reducing these impacts. And as long 
as we continue to set the threshold so low on disasters, we are 
encouraging States not to take action and we are subsidizing 
the development in high-risk areas, as Representative Graves 
says. You know, South Carolina sees one of the fastest growing 
areas in flood-prone areas that can only occur because we 
subsidize it through the National Flood Insurance Program and 
through our disaster programs. Just look in your time here the 
appropriations that were required for both FEMA and HUD, the 
Corps and others to respond to disasters. Think about what we 
could be doing with that other money or the fact that we have 
not had to borrow that money and grown the deficit? And so we 
need to look at not only policy here, but also I think we need 
to bring the private sector back into this, and we need to 
start pricing risk. There is a lot of things we got to do with 
the Flood Insurance Program and FEMA's trying with Flood Risk 
2.0. I think it is a good step. I also caution that it needs to 
be means-tested because we have a lot of people who don't live 
on the coast, many in rural parts of the country, agricultural 
based, and if we go to full actuary value without providing an 
index of affordability, we are going to price people out of 
their homes, which I do not think is the intention of Congress. 
But those that can should be paying what it costs, but I have a 
simpler solution: Why don't we just stop writing flood 
insurance for new construction? Let's take care of the folks we 
got because that program, as much as you have dealt with 
reauthorization in the short-term program to get that going, it 
is going to be hard to do any serious reform. There are so many 
issues we are not going to get to, so let's just take a first 
step. Let's quit making it worse. If you want to build in a 
high-risk flood zone, then buy it from the private sector. And 
it may be a sign that the private sector won't make insurance 
available or affordable, you shouldn't be building there the 
way you want to build. And I want to come back to our Federal 
floodplain management standard.
    In 2012, as we were getting ready to go to New Jersey for 
the infamous non-hug with Governor Christie with President 
Obama, he turned to me and said: Craig, the debate about 
climate change is over. We got to start talking about 
adaptation.
    Our problem was we had no tools to say what these impacts 
looked like and then go, well, what should we be building to? 
So the Federal flood plain management standard was a very 
simple idea. It wasn't that you couldn't build in a floodplain; 
it just said double the amount of height you had to have in the 
first place. If you were in the National Flood Insurance 
program, you have to build one foot above base flood elevation. 
It never said you can't build in a Zone A. All we were saying 
that if you were taking Federal dollars and building 
infrastructure with Federal dollars, you had to go to 2 feet, a 
doubling of that, and if it was a critical facility, like maybe 
a hospital, a jail, or a 911 center, my first question is, why 
are you building it in a flood zone in the first place? Build 
it 3 feet above, and we would provide that additional funding. 
It did cost more money, but think about the savings we would 
get. It has been repealed. They are studying it. They have been 
studying it now since 2017. That tells me we are probably not 
anywhere close to doing it, and I got bad news for them. I 
really think we undershot the whole estimate. We should have 
been talking maybe 3 to 4 feet if you are going to build in a 
flood zone, and we should have basically said: Stop building in 
the flood zone, and we need to increase this outside of the 
100-year flood zone, which turns out to be not a 100-year flood 
event anyway. In Houston, they are thinking that may be a 40-
year event, and we need to look at what the flood-prone areas 
are and raise our standards.
    The last thing, as I am over, we have a lot of tools that 
are forecasting the types of climate impacts we are going to 
have, yet we have not been able to translate that down to 
decision support tools to local and state governments to go: 
Well, if you are talking about sea level rise, what does that 
mean to my community? What does it mean to what I am preparing 
to do? And so I think these are areas that, again, I have been 
looking at this problem is, there is no debate about what 
climate change is being caused by. The only debate is can we 
adapt fast enough.
    Thank you, Madam Chair.
    [The statement of Mr. Fugate follows:]
                              ----------                              --
--------


                 Testimony of The Hon. W. Craig Fugate

   Principal, Craig Fugate Consulting LLC; Former FEMA Administrator

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

   ``Creating a Climate Resilient America: Reducing Risks and Costs''

                           November 20, 2019

    Chair Castor, Ranking Member Graves, and Members of the Select 
Committee, thank you for inviting me to testify today about climate 
resiliency, and what steps need to be taken to reduce the risks and 
costs of making our communities more resilient.
    As many of you know, I do not mince words when it comes to this 
topic: The climate has changed and we are seeing more climate driven 
extreme weather events. It is not something that is 30 years down the 
road. As a result, we need to start talking about adaptation. Time has 
run out for debate, action is required.
    The stark financial reality today is that the federal government 
spends billions of dollars annually to deal with the effects of climate 
change and extreme weather while not spending nearly enough to combat 
future risk. It is critical that we build in funds for resilience on 
the front-end of these federal investments. There is a huge cost-
benefit to the taxpayer, and the outcome is that disaster relief 
spending should ultimately be reduced in the out years because it costs 
significantly less to fund recovery for resilient construction 
following a disaster.
Disaster cost are growing at an unsustainable rate
    From the GAO High Risk Report for 2019, Limiting the Federal 
Government's Fiscal Exposure by Better Managing Climate Change Risks. 
``Since 2005, federal funding for disaster assistance is approaching 
half a trillion dollars (about $430 billion), most recently for 
catastrophic hurricanes, flooding, wildfires, and other losses in 2017 
and 2018.''
Climate Change impacts are occurring and getting worse
    Some Highlights from the Findings of the U.S. Global Change 
Research Program Climate Science Special Report 2017
          <bullet> Heavy precipitation events in most parts of the 
        United States have increased in both intensity and frequency 
        since 1901 (high confidence). There are important regional 
        differences in trends, with the largest increases occurring in 
        the northeastern United States (high confidence).
          <bullet> Extreme temperatures in the contiguous United States 
        are projected to increase even more than average temperatures 
        (very high confidence).
          <bullet> The incidence of large forest fires in the western 
        United States and Alaska has increased since the early 1980s 
        (high confidence) and is projected to further increase in those 
        regions as the climate warms, with profound changes to certain 
        ecosystems (medium confidence).
          <bullet> Global mean sea level (GMSL) has risen by about 7-8 
        inches (about 16-21 cm) since 1900, with about 3 of those 
        inches (about 7 cm) occurring since 1993 (very high 
        confidence).
          <bullet> As sea levels have risen, the number of tidal floods 
        each year that cause minor impacts (also called ``nuisance 
        floods'') have increased 5- to 10-fold since the 1960s in 
        several U.S. coastal cities (very high confidence). Rates of 
        increase are accelerating in over 25 Atlantic and Gulf Coast 
        cities (very high confidence). Tidal flooding will continue 
        increasing in depth, frequency, and extent this century (very 
        high confidence)
The past is not preparing us for the future
    As much as we need to learn from past disasters, the topline lesson 
that needs to be understood is that we must build, and rebuild after a 
disaster, for our future risk. In these scenarios, the past isn't the 
best indicator of what these risks have been. Many of you all have seen 
this, unfortunately, in your home districts: we build something back, 
and it ends up getting destroyed again. We ought to do it differently, 
and we need to do it better.
                            recommendations
Build better climate impact models and analysis tools for States and 
        Local Governments
    I have often said that I am not going to debate the merits of 
climate change. And I saw the effects of it through disaster responses 
I oversaw at FEMA. It is critical that the risks and effects of climate 
change are identified and understood so that we can take immediate 
action.
    To that end, the Committee should think about how to accelerate 
more scientific data and recommendations from a broad cross section of 
technical and scientific experts, and to consider the need for 
additional resources to support and improve platforms and models that 
can forecast and/or characterize sea level rise, flooding 
probabilities, wildfire risk, drought impacts, and other 
vulnerabilities associated with extreme weather and changing 
precipitation patterns.
The Nation lacks uniformed tools to measure resilience
    As a first step in creating a resiliency standard, develop tools to 
measure a community's resilience of its Tax Base to natural hazards.
    When local officials try to measure resilience, they often talk 
about critical infrastructure (Power, Water, Communications, etc.). I 
think a better measure is the resiliency of their tax base to natural 
hazard risks. From Hurricane Andrew (and the closing of Homestead USAF 
Base), Hurricane Katrina and the Gulf Coast, Hurricane Michael and the 
Florida Panhandle, The Camp Fire in California (Paradise), all have 
seen reductions in their tax base making recovery difficult or delayed. 
Loss of housing, jobs, and businesses compound the impacts of the 
disaster and can mean a failure or long delay to recovery
How and where will we build matters
    Building codes and land use planning are key steps in building 
resilient communities. Florida has seen the effects of its building 
codes reducing storm damage. California's 2008 updates to its building 
codes for wildfire mitigation contributed to homes surviving wildfires 
in 2017 and 2018. Organizations such as the Institute of Building and 
Home Safety's Fortified Home program show how building over minimum 
code requirements can save homes from multiple hazards https://
disastersafety.org. Congress should continue to support research in 
developing model building codes that address climate risk.
Preparing for Extreme Flood Risk
    Since leaving FEMA, I have been working with the Pew Charitable 
Trusts' Flood-Prepared Communities initiative on these very issues. Our 
work aims to decrease the impact of flood-related disasters through 
cost reduction policies.
    I use this as an example of how we need to shift our thinking, 
investments, and actions as flooding is our nation's most costly 
natural disaster and affects all 50 states--in areas both inland and 
coastal. It is something that is impacting constituents in each of your 
districts and home states. According to the National Oceanic and 
Atmospheric Administration, flood and coastal storm events have caused, 
since 2000, nearly $850 billion in overall losses when accounting for 
impacts such as business interruptions, physical damage to buildings, 
agricultural losses, and damage to public infrastructure.\1\
---------------------------------------------------------------------------
    \1\ National Oceanic and Atmospheric Administration, Billion-Dollar 
Weather and Climate Disasters: Summary Stats, National Centers for 
Environmental Information, (accessed October 1, 2019) available at 
https://www.ncdc.noaa.gov/billions/summary-stats (considering tropical 
cyclone to be flood-related disasters).
---------------------------------------------------------------------------
    Resilience and adaptation are essential to lowering the costs to 
taxpayers and the risks to our communities. Congress is extraordinarily 
generous in funding disasters each year to ensure that our communities 
can recover. However, the challenge in this is the inherent bias 
towards post--disaster assistance over adaptation and pre--disaster 
mitigation.
    It is essential that the federal government alter the long-existing 
bias that favors post-disaster assistance over federal support for 
adaptation and pre-disaster mitigation. Investing in resilience is not 
only good policy that leads to better protection for people and 
infrastructure, it is a better investment in terms of actual dollars. 
According to one study by the National Institute of Building Sciences, 
investing in mitigation saves society $6 for each $1 invested.\2\
---------------------------------------------------------------------------
    \2\ https://www.nibs.org/page/mitigationsaves.
---------------------------------------------------------------------------
    Congress needs to look at not only the amount of funding for 
mitigation, but also the types of funding vehicles available. The 
mitigation needs in one part of the country are different from another, 
but the underlying commonality is that both the amount of funding and 
the type of funding is lacking across the board.
    We all understand the difficulty in assessing the costs associated 
with investing in mitigation. This Committee, in particular, and 
Congress in general, should consider how we are currently looking at 
mitigation and adaptation costs. Currently, nearly 90 percent of 
funding for flood risk reduction comes in the aftermath of a big flood. 
(This is true for most disasters, with the passage of the Disaster 
Recovery Reform Act of 2018 (DRRA) Federal Fire Management Assistance 
Grants now included post event mitigation dollars). Obviously, that it 
is a good thing to rebuild the right way, but we also have to prepare 
before disasters because those investments will be more effective and 
well-thought out. I would encourage you all to look at how the current 
analytical approaches may not fully account for the benefits of 
adaptation and pre-disaster mitigation.
    The built environment is, of course, critical to our lives and 
well-being. However, we must also look at how non-structural solutions 
can also support adaptation and mitigation efforts in our country. 
Various nature-based solutions, such as wetlands and parks, can provide 
self-sustaining flood defenses that support ecosystem restoration while 
providing recreational space for communities. These have been proven to 
be across the board `wins'.
    One way the federal government has helped communities create or 
restore natural open space within floodplains is through FEMA's Pre-
Disaster Mitigation (PDM) Program. Through the PDM Program, FEMA has 
invested in the acquisition of disaster prone or damaged properties 
with the goal of moving people out of harm's way while creating 
permanent open space in the process. In theory, this program is a good 
tool that states, and communities can use to prepare beforehand, but it 
just doesn't get the funding to make enough of a difference. This needs 
to change, and I hope that as the Select Committee considers its 
recommendations, that it encourages increased funding for this at FEMA, 
as well as support other federal agencies in their evaluation and use 
of non--structural infrastructure wherever feasible.
    A second way for Congress to support resilience is pass the State 
Flood Mitigation Revolving Loan Fund Act of 2019 (H.R. 1610)
Update Flood Risk Maps and Communication of Flood Risk
    I recommend that Congress provide funding to update flood maps to 
portray all the areas at risk of flooding. For example, many of the 
homes that flooded in Hurricane Harvey were outside zones where flood 
insurance was required, which understandably caught homeowners by 
surprise. The worst thing we can do is create a false sense of security 
for homeowners and communities. Under the current structure, that's 
exactly what is happening.
    Terms such as a 100-year flood and flood insurance rate maps have 
led too many to underestimate their flood risk. How to communicate 
flood risk is terms that home owners will understand can lead to more 
purchasing flood insurance outside of the Special Flood Risk Areas.
    Congress should also require that to participate in the NFIP, the 
National Flood Insurance Program, states adopt flood hazard disclosure 
requirements for home sales that provide home buyers a right to know 
about flood history and risk before going to closure. Currently 29 
states have some form of flood risk/history disclosure, 21 states have 
no requirements.
    A key step for homeowners to be resilient is the purchase of flood 
insurance, either from the NFIP, or from private flood insurers. This 
action can be taken now by the public, as a first step in developing 
financial resilience in the face of more extreme flood events.
The Federal Government should not be the first financial responder to 
        frequent disasters.
    I would also encourage the Committee to look at how the Federal 
government response can act as a disincentive for state and local 
leadership on mitigation and adaptation. The federal government has 
multiple authorities for providing disaster response and recovery with 
programs housed in various agencies across the government. For example, 
direct grants to repair and rebuild public facilities, loans to 
businesses, families, and local governments, unemployment assistance, 
special tax treatment of losses, and financial aid to affected 
individuals all support our communities. A significant portion of this 
assistance flows through the Disaster Relief Fund (DRF) to function as 
a complement to state and local resources when disasters overwhelm 
local and state capacities.
    This is critical support that should not be discounted in any way. 
However, the downside is the increasing number of disaster declaration 
requests and growing reliance on the federal government. We see this as 
problematic, not only in terms of federal spending, but also in 
creating a strong disincentive for local and state leadership on 
adaptation.\3\ I would encourage the Committee look at the proposals 
for a ``disaster deductible'' that FEMA released in 2016 and 2017.
---------------------------------------------------------------------------
    \3\ A 2015 review of state budgeting for disaster concludes that 
natural disasters and emergencies have not had a significant effect on 
state finances, `` . . . because states relied on the federal 
government to provide most of the funding for recovery.'' https://
www.gao.gov/assets/670/669277.pdf.
---------------------------------------------------------------------------
Stop Growing the Risk
    Strengthen requirements for local and state governments, as well as 
eligible non-profits, to insure their risk. Too many claim to be self-
insured, but have instead transferred their risk to the federal 
taxpayer when disaster strikes. When the President declares a Federal 
Disaster under the Stafford Act. No less than 75% of their eligible 
uninsured losses are required to be covered. This has been an 
unintended consequence of the Stafford Act, growing the uninsured risk 
of state and local governments.
    One final point I would like to make is about NFIP, the National 
Flood Insurance Program. As you know, I oversaw this program when I 
served as FEMA's administrator, and that program has faced a lot of 
criticism. I am not here to debate the merits of NFIP, as it certainly 
plays a role in the immediate term to insure existing properties that 
aren't otherwise insurable. However, when discussing resiliency and 
mitigation, part of that conversation must include a discussion about 
not providing NFIP coverage to new construction in flood zones that 
only grows the risk. The question I ask, if the private sector will not 
insure the risk of new construction is flood prone areas, why should 
the taxpayer?
    Thank you for the opportunity to be here today, and I look forward 
to answering any of your questions.

    Ms. Castor. Thank you very much. Judge Hill, you are 
recognized for 5 minutes.

             STATEMENT OF THE HONORABLE ALICE HILL

    Ms. Hill. Thank you very much, Chairwoman Castor and 
Ranking Member Graves and members of the committee. I am 
delighted to have a chance to speak with you today. As we have 
discussed, natural disasters are on the rise and according to 
the fourth national climate assessment, they will continue to 
rise as climate change occurs. The costs of climate-driven 
events is also rising. We have heard about the staggering 
figures between 1980 and 2018, the National Oceanic and 
Atmospheric Administration estimates that the costs have been 
$1.7 trillion. Now, when communities suffer this type of 
devastation, Americans are generous. The Congress has 
increasingly authorized supplemental appropriations to provide 
relief to local and State governments overwhelmed by disasters, 
to small businesses and individuals who have suffered losses, 
and to repair damaged Federal assets.
    Some of the damage that is wrought by these climate-driven 
extremes stems from decisions made about how and where people 
build. Those decisions rest almost entirely with the states and 
often with local governments. That means that, even though the 
Federal Government currently has comparatively little say in 
state and local choices about land use and construction 
quality, it frequently picks up the tab for those choices after 
disaster strikes.
    The Federal Government's growing generosity to victims of 
disaster creates a moral hazard. Communities and people place 
themselves at greater risk because the Federal Government, the 
Federal taxpayers will bail them out. In the face of 
accelerating climate change, the Federal Government must reduce 
the incentives for people to settle in at-risk areas and to 
build in risky ways. We have heard a lot about flood here 
today, but let's talk about California's recent experience with 
wildfire as well. Ten of the most destructive fires in the 
State of California have occurred since 2015, and the state is 
currently fighting a vicious wildfire season. Preemptive power 
shutdowns were occurring in California today. California holds 
the dubious record for having more buildings destroyed by 
wildfire than all other States combined. A recent study has 
estimated that it has more than 2.7 million people and 1.1 
million homes located in areas already determined to be at very 
high risk of fire without looking at the added risk from 
climate change.
    In 2008, California enacted a strict new building code 
designed to reduce fire risk. During the devastating 2018 Camp 
Fire, only 18 percent of the 21,100 homes destroyed that were 
built to older versions of the code survived the fire, but of 
those houses that were built to the new stricter code, they 
performed better, but only 50 percent survived. With only half 
of the homes built to the latest code withstanding climate-
fueled wildfires, California cannot assume that its building 
codes will keep people and property safe. California faces 
worsening wildfire risk. Its own climate assessment estimates 
that climate change will expand the burned areas 77 percent by 
2100, yet just days after the Camp Fire, Los Angeles County 
board of supervisors approved a 19,000 home development in an 
area that the State had already determined is at high or very 
high risk without considering climate change.
    To avoid this moral hazard, the Federal Government should 
set as its objective that Federal taxpayer dollars provided to 
States, communities, businesses, or individuals either pre- or 
post-disaster be spent resiliently. The Federal Government 
should not subsidize new development that is constructed in 
less than resilient ways or in areas at high risk from climate 
impacts. The government can make immediate progress in this 
area by focusing on three issues that have been touched upon 
already--the creation and enforcement of resilient building 
codes, the provision of accurate risk assessments to inform 
land use decisions, and the provision of technical assistance 
to decisionmakers. Thank you very much.
    [The statement of Ms. Hill follows:]
                              ----------                              --
--------


                  Testimony of The Hon. Alice C. Hill

 Senior Fellow for Climate Change Policy, Council on Foreign Relations

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

   ``Creating a Climate Resilient America: Reducing Risks and Costs''

                           November 20, 2019

    Thank you, Chairwoman Castor, Ranking Member Graves, and Members of 
the Committee for inviting me to testify today. It is an honor to 
appear before you and I look forward to answering any questions you may 
have.
---------------------------------------------------------------------------
    The Council on Foreign Relations takes no institutional positions 
on policy issues and has no affiliation with the U.S. government. All 
statements of fact and expressions of opinion contained herein are the 
sole responsibility of the author.
---------------------------------------------------------------------------
    Natural disasters are on the rise. According to the Fourth National 
Climate Assessment, climate change has already brought more extreme 
weather and will continue to bring greater extremes in the foreseeable 
future. The nation will experience a range of climate impacts, 
including more intense storms, bigger wildfires, and greater 
temperature and precipitation extremes in the coming decades. Sea level 
rise has accelerated since the 1990s and will continue to do so in the 
years ahead.
    The costs of weather and climate-related disasters are also rising. 
Between 1980 and 2018, the United States suffered 254 weather and 
climate-related disasters carrying a price tag of over $1 billion each, 
according to the National Oceanic and Atmospheric Administration 
(NOAA). The total cost of these events is more than $1.7 trillion 
dollars. From 1980 to 2013, the nation averaged 6.3 such billion-dollar 
events per year. For the years from 2013 to 2018, however, the annual 
average leapt to 12.6 events. In 2019, the United States has already 
experienced ten weather and climate-related disasters over $1 billion 
each, not even counting the wildfires in California. This year is also 
the fifth consecutive year in which the total number of events has 
reached ten or more. These figures support the finding of the Fourth 
National Climate Assessment that the nation's efforts to prepare for 
climate change impacts have not yet reached the necessary scale to 
avoid substantial damage to the economy, environment, and human health.
    When communities suffer devastation, Americans respond with 
generosity. The Congress has increasingly authorized supplemental 
appropriations to provide relief to local and state governments 
overwhelmed by disasters, to small businesses and individuals who have 
suffered losses, and to repair damaged federal assets. According to the 
Government Accountability Office (GAO), between 2007 and 2013, federal 
appropriations for natural disasters increased 46 percent as compared 
to the previous six years. In just the last three years, supplemental 
appropriations for disasters has totaled $183 billion. In light of the 
growing fiscal exposure to the federal government, the GAO has 
identified climate change as a ``high risk'' since 2013.
    In addition to greater climate-driven extremes, the increase in 
damages also stems from decisions made about where and how people 
build. Those decisions rest almost entirely with the states, and often 
with local governments. That means that, even though the federal 
government currently has comparatively little say in state and local 
choices about land use and construction quality, it frequently picks up 
the bill for those choices after disaster strikes. The growing 
propensity of the federal government to absorb the costs of disasters 
means that state and local governments, developers, and individuals can 
build in riskier areas and in ways that provide less protection because 
they believe the federal government will cover the damage when the 
disaster occurs. In other words, the federal government's growing 
generosity to victims of disaster creates a ``moral hazard'': 
communities and people place themselves at greater risk knowing that 
federal taxpayers will bail them out. In the face of accelerating 
climate change, the federal government must reduce the incentives for 
people to settle in at-risk areas and to build in risky ways.
    Take, for example, California's recent experience with wildfire. 
Ten of the most destructive fires in the state of California have 
occurred since 2015 and the state is currently fighting a vicious 
wildfire season. California holds the dubious record for having more 
buildings destroyed by wildfire than all other states combined. A 
recent study has estimated it has more than 2.7 million people and 1.1. 
million homes located in areas at very high risk of fire. In 2008, 
California enacted a strict new building code designed to reduce fire 
risk. During the devastating 2018 Camp Fire, only 18% of the 21,100 
homes built to older versions of the code survived the fire. Those 
built to the new, stricter code performed much better, but only 50% of 
those homes survived.
    With only half of the homes built to the latest code withstanding 
climate-fueled wildfires, California cannot assume that its building 
codes will keep people and property safe. California faces worsening 
wildfire risk. Its own climate assessment estimates that climate change 
will likely expand burn areas 77% by 2100. Just days after the Camp 
Fire, however, Los Angeles County approved a new 19,000 home 
development in an area that the state had determined is already at 
``high'' or ``very high'' fire risk based on past risk and without 
consideration of the increased fire risk from climate change. If those 
houses should burn under the worsening conditions brought by climate 
change, it could be the federal government that pays, not those who 
made the decision to build in an area at high risk.
    To avoid this moral hazard, the federal government should set as 
its objective that federal taxpayer dollars provided to states, 
communities, businesses, or individuals--either pre-or post-disaster--
be spent resiliently. The federal government should not subsidize new 
development that is constructed in less than resilient ways or in areas 
at high risk from climate impacts. The government can make immediate 
progress in these areas by focusing on three issues: (1) creation and 
enforcement of resilient building codes, (2) provision of accurate risk 
assessments to inform land-use decisions, and (3) provision of 
technical assistance to decision-makers.
Resilient Building Codes
    Building codes reduce risk of damage. According to the 2019 Edition 
of the ISO National Building Code Assessment Report, Florida's 
implementation of a statewide windstorm building code reduced losses by 
approximately 72 percent. Effective building codes also ``have a strong 
positive effect on disaster preparation and resilience,'' as the 
recently released National Mitigation Strategy noted. A 2018 study by 
the National Institute of Building Sciences (NIBS) found that designing 
buildings to meet the latest model building codes yields a national 
benefit of $11 for every $1 invested. In light of the proven value of 
building codes in reducing damage, the federal government must insist 
on compliance with resilient building codes where federal taxpayer 
money underwrites construction.
    The United States does not have a national building code. Instead, 
non-governmental organizations, develop model codes and revise them 
periodically. The decision as to whether and which model building codes 
to adopt rests with states and, in many instances, local jurisdictions. 
Despite the case for strong building codes, however, the Federal 
Emergency Management Administration estimates that only 32 percent of 
disaster-prone jurisdictions have adopted disaster-resistant building 
codes. That means that close to 70 percent of disaster-prone 
jurisdictions are at greater risk of damage, damage for which the 
federal government will often be called upon to pay. The federal 
government must require state and local jurisdictions to use the latest 
model building codes when building with federal money, either pre- or 
post-disaster. Enforcing requirements to adopt and comply with the most 
recent model codes would save the federal Treasury substantial funds 
and spare local communities unnecessary damage.
    Notably, virtually none of the current model codes, however, yet 
incorporate consideration of the future risk of climate change. Rather, 
they rely on historical risk to determine the extremes which structures 
should withstand. The nation urgently needs model codes that account 
for the future risk from climate change impacts over the life of a 
structure. Estimates for when the building code organizations will have 
developed such codes range to as long as decade. The nation cannot 
afford to wait that long. As those model codes are in the process of 
development, the federal government should create its own climate-
resilient code for two of the most damaging impacts from climate 
change--wildfire and flood. Those codes would apply to construction 
where federal taxpayer dollars are used.
    The federal government already has experience with creating 
climate-resilient codes. Because no model code for climate-exacerbated 
flooding exists in the United States, the Obama administration, in the 
wake of Superstorm Sandy and based on the recommendation of the 
Hurricane Sandy Rebuilding Task Force, developed the first national 
flood standard, the Federal Flood Risk Management Standard (FFRMS). The 
FFRMS required that where federal taxpayer money was used to build 
structures in or near flood plains, those structures had to be elevated 
to avoid future climate-exacerbated flooding. Ten days before Hurricane 
Harvey poured approximately four feet of rain on the Houston area 
causing record flooding, President Trump rescinded the order creating 
the FFRMS. With the FFRMS, the federal government proved it was capable 
of producing such standards quickly and efficiently. The nation needs 
to take advantage of that capacity.
Risk Assessment in Land-Use Decisions
    Just as building codes reduce risk, restricting new development in 
at-risk areas reduces risk. The federal government should not use 
taxpayer dollars to support new development in high risk areas. Doing 
so contributes to the moral hazard that those making the decisions to 
allow development in risky areas do not bear the risk of those 
decisions.
    There is abundant evidence that people are moving into high risk 
areas. People like to live along our coasts--40 percent of Americans 
now live in a coastal county--and alongside rivers and streams. These 
areas face growing flooding risks from climate change, be it more 
intense storms bringing higher storm surge, sea-level rise, or extreme 
precipitation, or all of the above. For example, in the state of New 
Jersey, developers have built almost three times as much housing in 
coastal flood areas as in less risky areas since 2009. Yet the seas are 
rising. An estimated 360,000 homes are at risk of permanent inundation 
by 2050 and 3.4 million homes nationwide could face regular inundation 
by 2100. People also like to live near forests and grasslands, or what 
is known as the Wildland-Urban-Interface (WUI), areas. Although living 
in the WUI often carries a higher fire risk, it is the fastest growing 
land-use type in the United States. For example, the state of 
California has more people and property located in the WUI than all the 
other states combined. It has close to 4.5 million homes and 11 million 
people in the WUI. Yet, according to the state's own climate 
assessment, the areas burned by wildfire are expected to grow by 77% by 
2100.
    The federal government has already acted, albeit in a limited way, 
to restrict federal subsidies for development in risky areas. In the 
1970s and 1980s, Congress realized that the federal government's 
support of development on high-risk coastal barriers did not make 
economic sense. The Coastal Barrier Resources Act of 1982 (CBRA) makes 
certain areas ineligible for federal investments and financial 
assistance which would encourage development in designated areas. This 
means that those who want to live and invest in those areas bear the 
full cost of development and rebuilding after a disaster. According to 
one Department of Interior Study from 2002, the estimated savings to 
the federal government would reach almost $1.3 billion from 1983 to 
2010. This legislation could serve as a model for restricting support 
for new development in other at-risk area in the United States. At a 
minimum, the federal government should not provide financial support 
for new development in at-risk areas.
    To help communities better understand their risks and to guide 
decisions by the federal government as to which areas are safe to 
invest in, the federal government needs to provide comprehensive risk 
maps that include future risk from climate change. That means an 
immediate concerted effort to create flood and wildfire maps that are 
updated on a regular basis. Having clear assessments of risk readily 
available should improve local decision-making and better protect 
federal investments. Where areas are at high risk from climate impacts 
like wildfire and flooding, the federal government should restrict its 
investment in new development in those areas and post-disaster 
assistance. Where states have already invested in mapping, the federal 
government can adopt those maps where appropriate.
Technical assistance
    The federal government has enormous amounts of data and information 
regarding climate change risk. Yet those resources are not often easily 
understood or even accessible to local decision-makers on the ground. 
As one part-time mayor of a small town in Alabama, which faces risks of 
costal erosion from sea-level rise and more intense hurricanes, 
lamented in 2014, ``I don't have a big planning staff, grant writers, 
or any resources. So how can I even know the size of the threats we are 
facing--and what can I do to protect the people of my town?'' This 
mayor is not alone. Communities across the nation need help deciding 
how best to prepare for climate impacts. Doing so has the potential to 
save enormous amounts of money. According to a recently updated study 
conducted by NIBS, investment in risk mitigation can save an average of 
$6 in damage for every $1 spent in risk reduction.
    The federal government urgently needs to increase its technical 
assistance to local decision-makers. In 2015, the GAO concluded that 
the federal government's network of climate data remains so disjointed 
that ``decision-makers are vastly underserved.'' Although decision-
making tools and databases rest on numerous federal government 
websites, it is hard to imagine how busy local officials can make sense 
of them without guidance as to their merits and applicability. 
Similarly, the federal government supports various information hubs, 
including NOAA, the Department of Agriculture, the Department of the 
Interior, and the Federal Emergency Management Administration. This 
approach serves various constituencies but fails to provide a customer-
centric approach. Those that wish to take advantage of the information 
must wade through the differing formats, locations, and approaches that 
each individual agency has chosen to pursue. As the GAO recently noted, 
because of this uncoordinated approach, ``federal, states, local, and 
private sector decision-makers may be unaware that climate information 
exists or may be unable to use what is available.''
    As the National Mitigation Strategy recommends, the government 
``should support nonfederal partners by providing guidance, useable 
tools, and resources.'' The lack of readily available authoritative and 
actionable information has meant that in many locations and settings, 
adaptation efforts are stalling. Making climate information easy to 
obtain and understood would accelerate the updating of codes, the 
revising of zoning maps, improve engineering and architectural design, 
and speed revision of cost/benefit analysis. In the absence of current 
federal leadership in this area, attempts have been made by other 
entities to fill the void, including a civil-society-based network for 
assessing, sharing, and supporting applications of climate science 
called Science for Climate Action Network (SCAN) (for which I serve as 
an advisor). However, these efforts alone cannot possibly address the 
increasing demands for actionable information from across the nation. 
This should be a core function of the federal government.
    One immediate step toward accomplishing this goal is to develop a 
system for providing technical assistance. Such assistance could help 
guide state and local governments, businesses, and individuals, through 
the maze of federal programs and information centers already available. 
Such a system could also aid identification of ways to combine funding 
sources and navigate differing program requirements. Assisting 
decision-makers with on-the-ground choices will save not only them, but 
also the federal government, from substantial damage and leave the 
nation safer. Federal assistance in this area can yield substantial 
savings in post-disaster recovery costs if better decisions about where 
and how to build are made pre-disaster.
    In the longer term, the federal government needs to develop 
comprehensive climate services to support local planning and 
investment.

    Ms. Castor. Thank you very much.
    Mr. Berginnis, you are recognized for 5 minutes.

                  STATEMENT OF CHAD BERGINNIS

    Mr. Berginnis. Thank you, Chair Castor, Ranking Member 
Graves, and the members of the committee. On behalf of the 
Association of State Floodplain Managers, thank you for the 
opportunity to testify. Our written testimony details 40 
recommendations for you to consider regarding policy changes 
and priorities to make a more climate resilient America. For 
the balance of my time, I will weave those recommendations 
together and highlight some of them by telling the story of 
Pecan Acres, Louisiana, which has been in the press recently 
and compelled me to tie a lot of these things to that story. I 
first became aware of Pecan Acres by reading an article a 
couple years ago where I read about the plight of an elderly 
African American homeowner who couldn't afford to maintain 
flood insurance coverage as required when they get disaster 
assistance. The tradeoff would be to go without medication. She 
was on a fixed income and living in a very flood-prone area. In 
fact, Pecan Acres developed in 1968 as a community of 40 homes 
in a very flood-prone area having 17 floods in 30 years, and 
this was before there were any NFIP maps. So would Pecan Acres 
have been developed had flood risks been known? In fact, there 
are thousands of these neighborhoods from Florida to California 
to Illinois and everywhere in between, and yet we still don't 
have a complete picture of the flood risk either present or in 
the future. Among our recommendations related to data is that 
we need to get job done mapping the Nation, we need to have a 
regular program to update our rainfall frequency data, and we 
need to pass commonsense legislation, like the Digital Coast 
Act, to empower local decision makers.
    Back to Pecan Acres. Flood after flood and seemingly no 
program could help. Flooding misery, the loss of hope. 
Structural projects from the Corps of Engineers are likely not 
cost-effective for such a small and low-dollar-value area. FEMA 
is only available after a Federal disaster declaration and not 
after local flood events exacerbated by more extreme rainfall 
events due to climate change. People are stuck. There is a 
moral hazard. Those least able to withstand disasters are the 
ones squarely in harm's way. Today there is lots of programs--
the Corps, FEMA, NRCS, even the Federal Highway Administration 
needs to make sure that we have more resilient roads, but they 
don't necessarily work well together, and they are definitely 
not timely.
    In actuality, we don't even have a good idea of disaster 
costs, nor do we do a good job of investigating disasters like 
we do things like aircraft accidents. Congress has authorized 
interagency groups, like the Federal Interagency Floodplain 
Management Task Force, but it has few resources to operate, and 
we haven't had a unified national program for floodplain 
management report since 1995, so it is hard to put emerging 
threats, like urban flooding, in context.
    Finally, the last administration's effort to have forward-
looking solutions for Federal agencies and the things they fund 
was repealed in 2017. In other words, there is a lot of room 
for improvement in aligning Federal programs and resilience 
goals.
    Now back to Pecan Acres. A plan started to come together to 
use two programs, maybe not traditionally thought of, an NRCS 
Emergency Watershed Protection Program and Community 
Development Block Grant to acquire, demolish, relocate, and 
rebuild households out of harm's way. This raises a couple 
important points when it comes to adaptation and mitigation.
    First, we do not emphasize avoidance enough, whether 
initially when subdivisions are being built or in considering 
how we deal with the future threat of flooding. Second, our 
current approaches need to be improved through strength and 
resilience standards, accounting for social factors and 
environmental justice, not just benefit costs and creative ways 
to help, whether it be through mitigation tax credits or 
programs like the Department of Defense innovation readiness 
training program or leveraging new flood proofing technologies, 
such as those tested to the ANSI 2510 standards. Luckily for 
the folks in Pecan Acres, there is now hope. When the project 
is completed, the area will be reverted back to wetlands, 
harnessing the power of green infrastructure to reduce flood 
risk.
    While the project is not complete, it is under way and can 
serve as an example for other projects. You see there are 
thousands of these situations across America, and as sure as I 
sit here today, all of the communities and neighborhoods under 
present and future threat of flooding will not make it. We are 
already behind in our planning. Complete community adaptation 
is measured in decades, and it is imperative that we generate 
forward-looking actionable data, align programs, create new 
approaches, and come to grips that there will be places too 
hazardous to occupy and do all of this in such a way that 
doesn't leave the most vulnerable behind. Thank you for the 
chance to testify, and I will be happy to answer any questions.
    [The statement of Mr. Berginnis follows:]
                              ----------                              


                      Testimony of Chad Berginnis

      Executive Director, Association of State Floodplain Managers

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

   ``Creating a Climate Resilient America: Reducing Risks and Costs''

                           November 20, 2019

                              Introduction

    The Association of State Floodplain Managers (ASFPM) appreciates 
the opportunity to share our views on adapting to climate change, and 
being a more resilient nation in the face of this new future condition.
    The ASFPM and its 37 Chapters represent over 19,000 state and local 
officials as well as other professionals engaged in all aspects of 
floodplain management and flood hazard mitigation including management 
of local floodplain ordinances, flood risk mapping, engineering, 
planning, community development, hydrology, forecasting, emergency 
response, water resources development and flood insurance. All ASFPM 
members are concerned with reducing our nation's flood-related losses. 
For more information on the Association, its 14 policy committees and 
37 State Chapters, our website is: www.floods.org.

           Our Nation's Flood Risk Is Increasing Dramatically

    Floods are the nation's most frequent and costliest hazard. Every 
year the costs to taxpayers continue to increase. ASFPM estimates that 
in the 1990's average annual flood losses were about $5.6 billion. This 
increased to an average annual flood loss of $10 billion in the 2000s 
and in this decade will likely double again to around $20 billion per 
year.
    Climate change is manifesting itself in several ways as it relates 
to flood risk. But the two primary ways are sea level rise and more 
intense storms. For the former, the impact of rising sea levels depends 
on the pace and magnitude of the change--two factors about which there 
is great uncertainty. For instance, a 2016 study updated the estimates 
on the amount of ice melting in Antarctica concluded that the increase 
in sea level may be twice the level that was previously estimated. And, 
an additional source of uncertainty is the willingness and ability of 
the world's nations to change the trajectory of climate change. The 
success of agreements like the Paris Climate Conference and future 
agreements hold the potential to mitigate some of the projected impacts 
of climate change.
    In inland areas, all across the country, local officials are 
observing more intense rainfall events. And this is showing up in the 
data \1\ too. Warming conditions mean more water vapor in the air. When 
rain-triggering conditions are favorable more saturated air leads to 
heavier precipitation. One public works official from Arkansas recently 
noted ``It was easier when we could plan for and put in stormwater 
infrastructure that can handle 1-2 inches of rain each hour, but now we 
are seeing events where you might get four inches of rain in a half 
hour, I am not sure how we are going to handle that.'' Recent research 
\2\ by Climate Central reinforces this observation showing an upward 
trend with more days with 1", 2" or 3" or even more rainfall events.
---------------------------------------------------------------------------
    \1\ https://www.climate.gov/news-features/featured-images/prepare-
more-downpours-heavy-rain-has-increased-across-most-united-0.
    \2\ https://www.climatecentral.org/news/report-pouring-it-on-
climate-change-intensifies-heavy-rain-events.
---------------------------------------------------------------------------
    To meet today's challenges planning for future flooding conditions, 
while there are promising approaches, overall we are already behind as 
a nation. ASFPM would like to discuss several areas where improvement 
is needed. We will address:
          <bullet> Data, Analysis and Information
          <bullet> Federal Agency Programs and Policies
          <bullet> Adaptation and Hazard Mitigation

                     Data, Analysis and Information

    If we do not have robust systems in place to provide updated and 
anticipated hydrologic data, track disaster losses, analyze events, and 
provide sufficient resources going to research and development, we will 
simply never get ahead of new development in flood risk areas.
    One trend that we are seeing all over the country is that rain 
events are getting more intense. To compound matters, our nation tends 
to use outdated hydrology which only further underestimates the risk. 
The National Oceanic and Atmospheric Administration's (NOAA) National 
Weather Service (NWS) has been updating precipitation frequency 
estimates for various parts of the United States and affiliated 
territories. Updated precipitation frequency estimates, accompanied by 
additional relevant information, are published as NOAA Atlas 14 and are 
available for download from the Precipitation Frequency Data Server 
(PFDS). It is these data that are used in everything from hydrologic 
modeling for producing flood maps to thousands of design decisions 
every day for development and redevelopment in our communities 
throughout the nation. However, NOAA has neither the budget nor mandate 
to provide this in a timely way. In fact, a note in NOAA's most recent 
progress report which was through March 2019 indicated that ``No 
funding is available to extend NOAA Atlas 14 coverage to the remaining 
five northwestern states: ID, MT, OR, WA, WY in Volume 12.'' \3\
---------------------------------------------------------------------------
    \3\ Hydrometeorological Design Studies Center Progress Report for 
Period OCTOBER 2018 to MARCH 2019, page 4. https://www.nws.noaa.gov/oh/
hdsc/current-projects/progress/201904_HDSC_PR.pdf.
---------------------------------------------------------------------------
    Consider the new Atlas 14 data \4\ for Texas that came out last 
fall. That data basically determined that the 100-year rainfall amounts 
for Houston is now about a 25-year event. In Austin, the previous 100-
year rainfall amount is now about a 50-year event. As one of ASFPM's 
Texas members put it, ``pretty much all of the flood maps in the state 
of Texas are now outdated.'' And this particular Atlas 14 update was 
not even looking at the future; rather it is updating 40-50 year old 
data that was developed in the 1960s and 1970s. ASFPM is supportive of 
current NOAA efforts to test the feasibility of incorporating future 
climate projections into precipitation frequency analysis examining the 
inclusion of such data into future Atlas 14 updates.
---------------------------------------------------------------------------
    \4\ https://www.noaa.gov/media-release/noaa-updates-texas-rainfall-
frequency-values.
---------------------------------------------------------------------------
    <bullet> NOAA should be given the mandate and full budget to update 
our nation's rainfall frequency information at least every 10 years and 
this update must include future climate projections into precipitation 
frequency analysis.
    Stream and tidal gages are the stethoscopes of our hydrologic 
network. Ask any local official about a critical data need and most 
will say that there needs to be more streamgages. Yet funding for even 
those deemed critical by the federal government is in short supply. For 
example, the Federal Priority Streamgages (FPS) Network (previously 
known as the National Streamflow Information Program) was conceived in 
1999 to be a core, federally funded network. The original network 
design included 4,300 then active, previously discontinued, or proposed 
new gages that were strategically positioned across the country to 
address long-term Federal information needs (such as supporting NWS 
flood forecasts, or interstate and international compacts and decrees). 
At present (2018), more than 4,700 locations meet the criteria for 
inclusion in the FPS network, but only about 3,600 FPS are active 
because of funding limitations. These active FPS are supported through 
a combination of Federal and partner funding--less than one-quarter are 
fully funded by the United States Geologic Survey.
    <bullet> Congress should fully fund our critical national stream 
gauge and tidal gauge networks.
    Another critical piece of data that influences thousands of 
development decisions every day as it relates to flood resilience are 
FEMA's flood maps. Since 2012, FEMA has been mandated to not only 
provide flood maps for the entire nation \5\ but also provide future 
conditions flood risk information. Why future conditions? A 2013 study 
prepared for FEMA estimated that the 100-year floodplain area would 
increase by 45% nationally by the end of this century. Yet, little 
progress has been made on either since that time. In the continental 
United States, we have 3.5 million miles of streams rivers and 
coastlines. Yet, FEMA has only mapped floodplains on 1.2 million miles 
of them. While the FEMA Technical Mapping Advisory Council (TMAC), a 
congressionally-authorized advisory committee is helping FEMA oversee 
the nation's flood mapping program, completed the Future Conditions 
Risk Assessment and Modeling \6\ report in December 2015, it appears 
little has been done and we have yet to have these data appear on FEMA 
flood maps or in the data provided to communities. ASFPM has previously 
prepared a programmatic cost estimate for implementing FEMA's National 
Flood Mapping Program which includes both of the aforementioned 
mandates, concluding it will cost between $4.5 billion and $7.5 billion 
to ``get the job done'' in initially mapping the nation. We note and 
appreciate Chairwoman Waters' and Castor's efforts to highlight this 
issue by circulating and signing a dear colleague letter in March 2016 
calling for an infusion of funding over five years to complete the job 
of mapping the nation.
---------------------------------------------------------------------------
    \5\ Statute requires FEMA to provide 100 and 500 year flood data in 
developed areas and areas that have the potential for future 
development. Since the owner of a tract of land has the legal right to 
develop, this mandate can be construed as needing data for the entire 
nation.
    \6\ https://www.fema.gov/media-library-data/
1454954261186c348aa9b1768298c9eb66f84366 f836e/
TMAC_2015_Future_Conditions_Risk_Assessment_and_Modeling_Report.pdf.
---------------------------------------------------------------------------
    <bullet> Congress should provide adequate funding to finish the job 
of providing flood mapping for the nation, to include future conditions 
mapping, in a short (5- to 10-year) timeframe.
    Today's flood maps are based on models that incorporate hydrologic 
information and topographic information. Good progress has been made on 
high quality topographic information for the nation through the United 
States Geological Survey (USGS) 3D Elevation Program (3DEP). These high 
quality topographic data inform critical decisions that are made across 
the nation every day ranging from immediate safety of life, property 
and long-term planning for infrastructure projects. Currently at 60% 
complete, the goal of 3DEP is to complete the acquisition of nationwide 
high resolution elevation data by 2023.
    <bullet> Congress should ensure that the USGS 3DEP program is fully 
funded to provide nationwide high quality topographic information for 
the entire nation.
    Even if good flood data is developed, there are some policy hurdles 
preventing it from being publically available. For example, the US Army 
Corps of Engineers (Corps) new policy \7\ on Emergency Action Plans 
(EAPs) requires several types of flood inundation mapping (EC 1110-2-
6074). This policy standardizes inundation mapping and establishes 
inundation mapping requirements for dams and levees. In theory, having 
inundation mapping available to the public can help avoid debacles like 
those we witnessed around Barker and Addicks Reservoirs post-Harvey 
when thousands of homes in inundation areas of those structures were 
impacted. Had local land use planners, property owners and others been 
aware of these risks, steps could have been taken to reduce that risk. 
However, the new EAP policy includes the following statement: EAP maps 
are considered sensitive data and must be marked ``For Official Use 
Only'' according to AR 380-5 and DoDM 5200.01. In other words, 
inundation maps associated with EAPs are not publically available. Why 
would we be withholding this vital information on flood risk from 
property buyers and owners?
---------------------------------------------------------------------------
    \7\ https://www.publications.usace.army.mil/Portals/76/
Publications/EngineerCirculars/EC_1110-2-6074.pdf?ver=2018-01-22-
100438-250.
---------------------------------------------------------------------------
    The 2016 TMAC report National Flood Mapping Program \8\ Review, 
identified a legacy DHS policy through its Security Classification 
Guide for the Protection of Critical Infrastructure and Key Resources, 
which listed dam failure inundation maps as ``For Official Use Only.'' 
However, this policy conflicts the National Flood Mapping Program 
requirements that such areas be provided on Flood Insurance Rate Maps 
and on publically-available databases such as NLD and NID. As noted in 
the report, a Virginia law passed in 2008 essentially requires that all 
inundation mapping developed for state-regulated dams be made available 
to communities and the public. This has now been implemented for a 
decade without issues and state officials there believe in supporting 
wider public availability of these data. More recently, when speaking 
to agency officials, there has been a mistaken belief that this issue 
had been dealt with. It is clear to ASFPM that it has not and the 
unwillingness of agencies to act on it demands congressional 
intervention.
---------------------------------------------------------------------------
    \8\ https://www.fema.gov/media-library-data/1474555532007-
c063547f6f48026feb68c4bcfc41169d/
TMAC_2016_National_Flood_Mapping_Program_Review_Updated.pdf.
---------------------------------------------------------------------------
    <bullet> Congress should mandate that any flood risk data, 
including all dam/levee inundation mapping, developed by the federal 
government and/or associated with any federal program be made 
publically available.
    As a nation, we neither have the system to effectively track 
disaster losses nor analyze them comprehensively in order to learn 
lessons that we can apply to future resiliency efforts.
    Despite the frequency and expenses of natural disasters, there 
exists no system in either the public or private sector for 
consistently compiling information about their economic impacts. Any 
data collection effort should focus on the losses as a result of 
natural disasters, or negative economic impacts. The loss from a 
disaster is a broader concept than its cost, a term that conventionally 
refers only to the losses that are reimbursed by insurance companies 
and governments through disaster relief. A National Academies of 
Sciences report \9\ on this topic made several good recommendations 
that ASFPM supports including recommendations for also tracking 
disaster payouts incurred by federal agencies to improve tracking 
federal disaster spending--not only to individuals and businesses but 
also to communities and even spending on repairing federal facilities 
such as levees or Dept of Defense facilities.
---------------------------------------------------------------------------
    \9\ https://www.nap.edu/read/6425/chapter/1.
---------------------------------------------------------------------------
    <bullet> One agency of the federal government should be made 
responsible for compiling a comprehensive database containing the 
losses of natural disasters and disaster spending.\10\
---------------------------------------------------------------------------
    \10\ The National Academies of Science Report identifies the Bureau 
of Economic Analysis (BEA) within the U.S. Department of Commerce, in 
consultation with FEMA and other federal agencies involved in natural 
disaster preparedness, response, and mitigation activities, as best 
suited for this purpose.
---------------------------------------------------------------------------
    One vital, yet inexpensive, doable step is to adopt the culture of 
learning from mistakes that we show in other contexts. Consider 
aircraft accidents. After each crash, we don't gather around the crash 
site, mourn, confine our blame to the hapless pilots, and solemnly 
promise to ``rebuild the aircraft just as before.'' The investigation 
is handled by a standing, independent federal agency, the National 
Transportation Safety Board (NTSB). Investigators immediately report to 
the crash scene. They analyze flight recorders and other data to 
understand the actions of pilots and crew in response to the emergency 
conditions, but they do not stop there. They go on to consider possible 
design flaws in the air frame, errors in equipment manufacture, 
irregularities or shortcomings in airline inspection and maintenance, 
air traffic control procedures, the prevailing weather--in short, all 
aspects of aviation that might have any bearing on the incident. 
Moreover--and this is not so generally appreciated--the NTSB 
coordinates and leads the team, but the team includes experts from all 
the stakeholders--the airframe manufacturer, the airline, the FAA, etc. 
Finally, though NTSB findings and recommendations do not carry the 
force of law, stakeholders ignore them at their peril. The result? A 
safety record that has steadily improved over the years with very few 
aircraft deaths resulting. Something similar is needed with respect to 
analysis and evaluation of the entire range of all major natural 
disasters.\11\
---------------------------------------------------------------------------
    \11\ For a more in-depth discussion on this concept (and from where 
this text was excerpted), please see the June 2006 essay by Gina Eosco 
and Bill Hooke in the Bulletin of the American Meteorological Society. 
https://journals.ametsoc.org/doi/pdf/10.1175/BAMS-87-6-751.
---------------------------------------------------------------------------
    <bullet> Congress and the administration ought to work together to 
explore the establishment of a standing National Disaster Reduction 
Board (NDRB), to analyze and report on disasters. Each report would 
provide opportunities and incentives for communities and businesses, 
and state and federal governments, as well as policy makers like 
Congress to learn from mistakes and make ongoing adjustments to 
decisions and policies.
    For the past decade, a novel approach to data management, tool 
development and data dissemination has been piloted at NOAA through the 
Digital Coast Partnership. Developed and maintained by NOAA, hundreds 
of organizations and federal, state, and local agencies have 
contributed to this curated collection of high-quality authoritative 
data and tools focused on coastal and ocean issues. ``More than Just 
Data'' is the slogan of the Digital Coast because data alone is not 
enough, especially when users of that data do not know how it can be 
used, or what steps to take to get information they need. Digital Coast 
tools and training help users turn data into powerful information that 
continues to increase the coastal knowledge of our nation.
    For example, one of the most popular tools being used by 
practitioners today on the Digital Coast website \12\ is the Sea Level 
Rise viewer. ASFPM was a founding member of the partnership and 
strongly believes that to better understand the future flooding risk in 
coastal areas and manage that risk, programs like Digital Coast will be 
vital.
---------------------------------------------------------------------------
    \12\ https://coast.noaa.gov/digitalcoast/.
---------------------------------------------------------------------------
    <bullet> Congress should pass the Digital Coast Act.
    The House bill (HR 2189) was reported favorably out of committee in 
September, last week the Senate bill was reported out of committee.

                  Federal Agency/Programs and Policies

    While there are numerous programs and federal agencies that address 
the threat of flooding and floodplain management, most do not take into 
consideration the future flood condition that will be exacerbated by 
climate change.
    In 1975, Congress established the Federal Interagency Floodplain 
Management Task Force (FIFMTF). Its purpose was to carry out the 
responsibility of the President to prepare for the Congress proposals 
necessary for a Unified National Program for Floodplain Management. For 
more than 40 years, some form of an interagency group has worked to 
better understand the appropriate roles of local, state and federal 
governments in reducing flood losses, the interactions between human 
actions and natural systems in the floodplain environment and to make 
recommendations to reduce the loss of life and property caused by 
floods. Also, the task force is useful to identify and address policy 
or programmatic conflicts among federal agencies that may be resulting 
in poor floodplain management decisions. The main report of the FIFMTF, 
a Unified National Program for Floodplain Management was first written 
in 1979, then updated in 1986 and last updated \13\ in 1995. 
Unfortunately, the report hasn't been updated in almost 25 years while 
the threats resulting from flooding have exploded. Not only is research 
showing significant social impacts of flooding, new flooding types like 
urban flooding are emerging.
---------------------------------------------------------------------------
    \13\ https://www.fema.gov/media-library/assets/documents/18472.
---------------------------------------------------------------------------
    In 2012, ASFPM analyzed more than 130 federal programs that had 
some impact on the use and development of floodplains. At the time, our 
evaluation also looked at climate adaptation as it pertained to these 
programs which, for most was either non-existent or just beginning to 
be explored.
                        administration/congress
    <bullet> Update the Unified National Program for Flood risk 
management to define the appropriate role of local, state, tribal and 
federal governments in managing flood risk including future impacts of 
climate change and the emerging threat of urban flooding.
    <bullet> Convene a task force of national economic experts to 
review and make recommendations for possible changes regarding economic 
planning and evaluation for flood-related projects; including 
application of discount rates, treatment of residual risks, land 
valuation, lost opportunity costs, valuation of green infrastructure 
and ecosystem services and functions, future conditions and other 
considerations regarding structural and non-structural approaches in 
evaluating flood risk reduction and flood hazard mitigation projects.
    <bullet>  Codify Executive Order 13653--the Federal Government, as 
well stakeholders, must manage climate change risks with deliberate 
preparation, cooperation, and coordination in order to effectively 
improve climate preparedness and resilience.
    <bullet> Codify an effective federal flood standard when using fed 
funds to build/rebuild that would address ordinary and critical 
facilities (e.g. hospitals, water supply, etc) and include 
consideration of future conditions and a requirement for agencies to 
consider natural infrastructure alternatives.
                        interagency coordination
    <bullet> Adequately resource the Federal Interagency Floodplain 
Management Task Force (FIFM-TF) to better equip it to undertake its 
role in interagency coordination.
    <bullet> Direct the Federal Interagency Floodplain Management Task 
Force to determine how the federal agencies can collaborate on data, 
programs and funding to reduce flood risk and flooding costs for 
taxpayers at all levels.
    <bullet> Ensure that projects conducted or funded by federal 
agencies are reflected on FEMA floodplain maps in a timely manner.
           department of defense/u.s. army corps of engineers
    <bullet> Investigate the resiliency based standards passed in the 
McCain Defense act last year that in essence require DOD facilities to 
be looking to higher standards and future climate standards. Determine 
to what extent DOD has developed rules, is implementing, and is 
complying with the Congressional mandate and intent.
    <bullet> Require the development and transition federal planning 
principles to a National Economic Resilience and Sustainability 
standard instead of the current National Economic Development (NED) 
standard to explicitly incorporate the values of multiple ecosystem 
services, including the non-market public values provided by the 
nation's floodplains, and future climate conditions.
    <bullet> Require a minimum design standard of the 500-year flood or 
PMF level protection for levees protecting urban areas.
    <bullet> Cease federal taxpayer funding of beach nourishment if 
benefits are primarily for recreation. Those who benefit should pay for 
this temporary benefit. The entire beach nourishment policy should be 
revisited in light of a changing climate and sea level rise. In 
particular, the cost share for these projects should reduce federal 
taxpayer costs share to no more than 50%.
                     federal highway administration
    <bullet> Improve sharing post disaster highway data and best 
practices to improve resilient reconstruction of non-federal/state 
highways. Develop guidelines to assist local highway departments to 
help them in reconstruction following flooding.
                     housing and urban development
    <bullet> Permanently authorize the CDBG-DR program to avoid HUD 
having to write rules after every disaster supplemental to streamline 
the rebuilding process.
    <bullet> FEMA Public Assistance and HUD CDBG and other disaster 
funding should require net zero carbon emissions for project 
eligibility.
                  federal emergency management agency
    <bullet> Under NFIP, consider extending the mandatory purchase 
requirement for flood insurance to all areas. At a minimum, it should 
be expanded to other known flood hazard areas such as residual risk 
areas, urban flooding areas, .2% chance (500-year) floodplain, etc.
    <bullet> Under NFIP, flood maps must include future flood 
conditions for NFIP regulation as directed by Congress. Added future 
flood layers for 2040, 2060 and 2100 projections can be in the digital 
data for community use for planning or risk commination or other 
community needs.
    <bullet> Emphasize the most basic but most important resilience 
strategy for the NIFP: ``avoidance''. We should not invest any 
mitigation money in a community unless they first adopt higher 
standards that prevent adding any structures or assets within high risk 
areas. Simply put, we have to stop the vulnerabilities from increasing 
first and only then start chipping away from what we can then call 
legacy vulnerabilities.
    <bullet> Require all Class 7 and better in the NFIP's Community 
Rating System communities to consider and plan for anticipated climate 
change in their floodplain management plans. Class 1 communities should 
prepare maps and regulations using best available data to address the 
impacts of changing climate for the next 100 years.
    <bullet> Establish a national flood risk disclosure law to all 
potential buyers know the past history and future flood risk potential 
of all properties.
    <bullet> Require utility companies (eligible for PA) to analyze the 
full range of mitigation options and account for current and future 
flood risk in planning, design, construction and reconstruction of 
facilities. Future federal assistance should be prohibited unless such 
requirements have been adequately incorporated.

                    Adaptation and Hazard Mitigation

    Community and individual adaptation to climate change will not be 
quick nor easy. Any community facing flood risk often is also facing a 
multi-decadal timeframe to reduce that risk enough that they will be 
resilient in the face of current and future flood threats. Property 
owners facing increased sea level rise have a very real prospect of 
their property value plummeting to nothing--for the single asset that, 
for most Americans, is their most valuable.\14\ To say we have an 
adaptation problem in this country is vastly understating the issue and 
delay will only add hundreds of billions of dollars in estimated flood 
related damages that will already likely occur due to climate change.
---------------------------------------------------------------------------
    \14\ An insightful 2016 article by Freddie Mac's Economic and 
Housing Research Group (Life's a Beach), discusses potential impacts of 
climate change that may be unavoidable when it comes to flooding and 
concludes that they will likely be greater in total impact than the 
housing crisis and Great Recession. http://www.freddiemac.com/research/
insight/20160426_lifes_a_beach.page.
---------------------------------------------------------------------------
    In some communities, coastal in particular, it is not going to be 
feasible to stay along the coast given the risks from sea level rise 
and resources available to adapt. We will need to take proactive 
strategies and provide technical assistance to help communities make 
more informed decisions on when to rebuild more smartly vs when it 
would be time to start phasing in relocation. Developing innovative 
assistance programs like the Digital Coast to support the evaluation 
process, decision making and potential infrastructure/community moves 
would be important to advance progress. Below are some recommendations:
    <bullet> Develop national hazard resilience standards for the 
location, design, construction, and reconstruction of all public 
infrastructure and buildings that consider: alternative locations, 
future conditions, green or nature based options, mitigation and a No 
Adverse Impact approach. These standards should then become a condition 
of federal funding.
    <bullet> Minimize use of federal taxpayer dollars to rebuild in 
areas we know have greatly increasing flood risk.
    <bullet> Incentivize mitigation through changes to the tax code 
like a mitigation tax credit.
    Flood mitigation actions like buyouts and relocations in 
particular, will be effective in adapting to climate change, especially 
in communities where the flood hazard area becomes too difficult for 
continued occupation. However, our current programs for buyouts and 
relocations have several issues which make them too time consuming and 
complex to be done in the manner that they need to be implemented. 
Congress should examine the buyout and relocation programs that are 
offered by multiple agencies (FEMA, HUD, USACE, NRCS) to ensure that 
they are streamlined to the maximum extent possible and also support 
area wide or community wide buyouts/relocations. In fact, largely due 
to the complexity of such a project and the inability of federal 
programs to work together, we rarely see these options used on a large 
scale. An exception to this is the community relocation project \15\ of 
Newtok, Alaska where both FEMA Hazard Mitigation Grant Program and Pre-
Disaster Mitigation grant funds are being used, as well support from 
the Bureau of Indian Affairs and the U.S. military through the 
innovative DoD Innovative Readiness Training (IRT) program.
---------------------------------------------------------------------------
    \15\ https://content.govdelivery.com/accounts/USDHSFEMA/bulletins/
2692581?reqfrom=share.
---------------------------------------------------------------------------
    <bullet> Place priority on buyouts and relocation as a way to adapt 
to climate change.
    <bullet> Ensure buyout programs/projects pair buyout assistance 
with the development of affordable housing in less flood-vulnerable 
areas.
    <bullet> Fund research on evidence based buyout practices and 
dissemination of the results to practitioners. Require the FIFM-TF or 
other task force to examine the hurdles to community wide or 
neighborhood buyouts / relocations, with a focus on federal programs 
working together.
    <bullet> Explore a more widespread usage of the DoD Innovative 
Readiness Training Program for flood mitigation projects, especially 
community/neighborhood relocations.
    <bullet> Permanently authorize the Community Development Block 
Grant--Disaster Recovery program.
    Congress needs to address the lack of buyout program for flood-
prone land in rural areas. Such areas are often those places next to be 
developed and it would be significantly less costly to acquire either 
permanent easements or the properties outright then to do so after 
development occurs. In many areas of the country more floodplain land 
is needed to safely accommodate flood water through leveed stretches of 
river. While urban buyouts will improve public safety and reduce 
property damage, portions of floodplain that are currently protected 
from flooding by levees must be utilized to convey floodwaters away 
from towns and critical infrastructure. At the moment, no comprehensive 
program for land acquisition to improve flood management in rural areas 
exists. Agencies like the USDA, the Army Corps, and FEMA have various 
limitations and restrictions on acquisition or easements that make land 
acquisition a primary barrier to floodplain reconnection projects.
    One example would be to improve the USDA Emergency Watershed 
Protection-Floodplain Easement Program (EWPP-FEP). Floodplain easements 
allow for restoration of natural and beneficial functions of 
floodplains on land that has been damaged by flooding and allows for 
floodplains to be utilized to safely convey flood water on undeveloped 
land. However, this emergency funded program is only activated when 
infrastructure damages reach a critical threshold to automatically 
trigger a Stafford Act Federal Emergency Declaration, or if Congress 
declares easement funding to be available through an emergency 
appropriation. Unfortunately, both avenues are difficult to achieve. 
First, the critical infrastructure damage thresholds are almost 
impossible to reach in many rural counties. Second, if flood damage is 
localized it can be hard to garnish the requisite national attention 
needed for an emergency appropriation bill. This can leave rural 
landowners with unfarmable, flood-prone land following a flood 
disaster.
    <bullet> The EWPP-FEP program should be reformed to allow for the 
release of funding based on more locally based flood damage thresholds 
or set up as a non-disaster easement program.
    While buyouts and relocations are good long-term solutions, there 
must also be options available in the short to medium term. One 
approach in the short and medium term timeframe is to use the latest 
floodproofing technologies. There is an incredible amount of innovation 
occurring right now as new technologies are coming online to help solve 
flooding problems. However, are these technologies as good as promised? 
For buyers, one way to achieve some certainty is to ensure that the 
product has met the ANSI 2510 standard. ASFPM, in partnership with FM 
Approvals, assisted with the creation of the 2510 standard over a 
decade ago. The standard applies to floodproofing technologies such as 
perimeter barriers, opening barriers, flood mitigation pumps, backflow 
valves, and now sealants and glazing systems. ASFPM, in partnership 
with FM Approvals and the Corps oversees the National Flood Barrier 
Testing and Certification program where products that have been tested 
and certified to the 2510 standard can be found on the website: https:/
/nationalfloodbarrier.org/.\16\ ASFPM is encouraging communities to 
adopt the 2510 standard and also incorporate it into the nation's 
building codes.
---------------------------------------------------------------------------
    \16\ https://nationalfloodbarrier.org/.
---------------------------------------------------------------------------
    <bullet> Require federal agencies who purchase and use flood 
fighting products and federal grant programs that authorize the use of 
such products ensure such products are 2510 certified and are used in 
floods that meet that certification.
                   social and housing considerations
    More and more, there is a nexus of issues surrounding disaster 
losses, climate change, social issues (i.e., the effects on low/
moderate income (LMI) populations and social justice) and housing. The 
moral issue is this: How/why do we put those who have the most to lose 
during a flood in harm's way through our housing, zoning, 
infrastructure, and other policies? Unfortunately, this is exactly what 
federal policy does. For example, the Department of Housing and Urban 
Development does not have a universal policy against paying for housing 
in flood prone areas. At the same time, we recognize that much of the 
nation's affordable housing stock was built before climate change was 
well understood, and many affordable housing options are at risk of 
flooding. Thus, under current policies, the extreme shortage of 
affordable housing for low income families is squarely at loggerheads 
with the realities of flood risk. According to a recent study,\17\ 
nationwide about 450,000 government subsidized households are in mapped 
floodplain.\18\ Therefore, if HUD were to withdraw support from all 
properties in the floodplain it would create a new crisis of 
homelessness creating a whole new set of problems.
---------------------------------------------------------------------------
    \17\ https://furmancenter.org/research/publication/housing-in-the-
us-floodplains.
    \18\ As stated earlier in this testimony this is likely a gross 
underestimate of the housing units at risk given that the nation's 
flood maps are not yet completed and they do not account for future 
conditions.
---------------------------------------------------------------------------
    <bullet> HUD should examine its housing programs and create 
innovative mechanisms (i.e., targeted flood mitigation programs for 
existing at-risk affordable housing units) to incentivize communities, 
housing authorities, and landlords to undertake mitigation actions with 
a long-term goal of substantially reducing or eliminating flood risk.
    <bullet> Incentivize the location of new affordable housing to 
ensure that it is in flood risk free areas.
    The Association of State Floodplain Managers appreciates this 
opportunity to share our observations and recommendations with this 
Committee. For any questions, please contact Chad Berginnis, ASFPM 
Executive Director at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c4c5c2d5c0cec9c9ced4e7c1cbc8c8c3d489c8d5c0">[email&#160;protected]</a> (608 828-3000), or Larry 
Larson, ASFPM Sr. Policy Advisor at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d010c1f1f142d0b010202091e43021f0a">[email&#160;protected]</a> (608-828-3000).

    Ms. Castor. Well, thank you all very much. All right. So we 
have a climate emergency. We do not have time to wait and what 
we are--what you all--your message to this committee is that we 
have got to figure out some ways to incentivize local 
communities and states to do better, to integrate the climate 
risk into all of the decisions they make. Before I came to 
Congress, I was a county commissioner, and it was difficult 
enough, notwithstanding climate factors, just to have sound 
land use decisions and planning decisions.
    How do you all recommend that we from the Federal level 
here build in the incentives that local communities need or 
disincentives to ensure that they are in every decision they 
make in their capital improvement programs, land use decisions, 
that climate risk is a part of that decisionmaking? Mr. Fugate, 
if you would start.
    Mr. Fugate. It may not even be Congress that does that. The 
institutional lenders, the raters, such as Moody's, are already 
putting local governments on notice that bond ratings may be 
affected about the resiliency of their tax base and that State 
and local governments that are not taking steps to address the 
resiliency of that tax base, the ability to service that long-
term debt, may result in higher bonding cost. As you know as a 
county commissioner, your bond rating is a golden standard for 
the ability to operate. So I think the private sector's 
actually further along than we are. Their big question is they 
don't even know how big the exposure is, but the fact they are 
asking the question, I think, is the first step. I think the 
other part of that is, the incentives that we currently have in 
the disaster programs are such as you have heard from 
everybody, it is a disincentive for governments to change what 
they are doing. I think we need to look at things like disaster 
deductible in the Stafford Act. I think we need to look at quit 
writing policies for new construction, and I think we need to 
make investments where we are able to make investments at 
standards not based upon past weather and past history, but 
what potentially is going to be the impact.
    Ms. Castor. Thank you.
    Judge Hill.
    Ms. Hill. I agree with everything that Craig has said. One 
of the important things is for--we need to make sure that we 
are informing Americans about their risk. This is a task that I 
think the Federal Government is particularly well suited to 
with its strong strength in science and research, to provide 
the mapping of two American citizens to have better knowledge. 
And then, once that mapping is in place, which must include the 
future risk from climate change, we must create carrots and 
sticks for local communities in terms of signaling that Federal 
taxpayer dollar will not support new development in areas that 
are at extreme risk. We will define what that risk level is, 
but no Federal taxpayer money should support new development in 
those areas. And then, of course, we will have to address the 
substantial development that has already occurred, as Chad has 
indicated, in areas that were not known to be a risk, but we 
must address their needs as well.
    One of the important things we need to do as a nation is 
develop model building codes that reflect the risk of climate 
change. We have currently no such model building codes 
available. Estimates have run that it will take a decade. The 
Federal Government could provide incentives to our model 
building code organizations to speed up, to accelerate the 
development of codes that will help individuals protect 
themselves as well as communities. Without those codes, we are 
at risk of building things that will be destroyed in the next 
flood.
    We also need to require that communities who want Federal 
support follow those codes. And, finally, as has been touched 
upon, we need to make sure that we are providing the assistance 
on the ground to people like yourself, Chairwoman Castor, who 
are trying to make important decisions but may not have all the 
information needed or all the----
    Ms. Castor. And there are plenty of communities that are on 
the front lines that don't have the wherewithal, that don't 
have even a planner on staff, those kind of issues.
    So, Mr. Berginnis, what does this mean for Federal flood 
standards, and how would communities deal with that?
    Mr. Berginnis. Well, I think the starting point has to be 
data and one of the roles--an appropriate role of the Federal 
Government is to provide good, actionable data and 
decisionmaking tools, and so, whether it is finishing the job 
of mapping the nation, whether it is--and this is probably the 
most egregious issue, is that we don't even have a mandate nor 
budget to update our rainfall frequency information.
    So, in Texas in 2018, they got a new Atlas 14, which 
essentially basically said, what was the 100-year rainfall 
event in Houston is now the 25-year event. In Austin, it is a 
50-year event, and one of our member's comment is, like, okay, 
all the flood maps in Texas are now invalid. We are basing 
thousands of decisions on data that is old and not usable. And 
so, we need to have that investment of data and one thing that 
this Congress could do right now, there is the Digital Coast 
Act that is pending in Congress to work on that data need.
    Once we have data in terms of standards, we still have--we 
still have not done a good job of tying our disaster assistance 
programs, for example, to the requirement of having standards. 
What would happen if public assistance, which is by far the 
biggest amount of disaster assistance we have, was conditioned 
on the fact that you have latest codes?
    I guarantee you almost every single community in the Nation 
would have the latest codes pronto because you can't turn down 
that much assistance, but we don't tie appropriate 
disincentives to our programs.
    Ms. Castor. Great. Thank you very much.
    Mr. Carter, you are recognized for 5 minutes.
    Mr. Carter. Thank you, Madam Chair. I appreciate the 
opportunity, and thank all of you for being here. I appreciate 
it very much. Do we want to pause?
    [Disturbance in hearing room.]
    Ms. Castor. Thank you very much. You heard me already in my 
opening remarks say we have a climate emergency, so will you--
thank you very much for participating in this great democratic 
process. Can we proceed to get to the solutions? But thank you 
very much. Mr. Carter, you are recognized--thank you.
    [Disturbance in hearing room.]
    Ms. Castor. Thank you very much. Mr. Carter, you are 
recognized for 5 minutes.
    Mr. Carter. Thank you, Madam Chair, and, again, thank all 
of you for being here.
    I want to ask you something that I continue to remind my 
colleagues of. Do you know what the number one forestry state 
in the nation is?
    Mr. Fugate. No, sir. We grow trees in the South like people 
grow corn in the Midwest.
    Mr. Carter. Absolutely. We are blessed in the State of 
Georgia. We have the number one commercially available 
timberland, number one in annual timber harvest volume; number 
one in the exporter of pulp, paper, and paper board mill 
products; number one exporter of wood fuel; and the number one 
exporter of wood pellets. And I say that to tell you that, in 
the First Congressional District, we have got some of the most 
competitive timberland in the Nation, and I am very proud of 
that, and I am very proud of the resiliency that is offered 
through our sustainable forest. And I want to point that out 
because Mr. Fugate, would you agree that working forests can 
help to bolster the resiliency of local landscapes, both 
through reducing soil erosion and improving water quality as 
well as a number of other things?
    Mr. Fugate. Yes, sir.
    In the South, we grow to silviculture. It is not a natural 
process. It grows trees for production. However, they are not 
as resilient as we would like. The timber industry in the 
Florida panhandle and what we call the 850 has been devastated 
and will take decades to recover. Southwest Georgia saw the 
same thing. During extreme droughts, all that timber becomes 
major wildfire areas, and as we continue to see our communities 
build into the interface, we have developed wildfire risk on 
the East Coast that may not be as great as the West Coast, but 
is certainly changing the dynamics of that area.
    But that crop and that ability to plant trees obviously 
does a lot to put land that may not otherwise be usable into 
productive use, absorb carbon, and help build resilient 
economies, but it is not totally resilient to the impacts of 
climate.
    Mr. Carter. Absolutely. And I understand that, but that 
brings me to a point that I want to bring up. I have got some 
legislation. It is H.R. 1444, the Forest Recovery Act. 
Currently, under current law if a working forest is struck by 
catastrophic loss, as you point out, often happens, hurricanes, 
wildfires, whatever it may be, 70 percent of timber farmers 
must simply eat the cost of that. What my bill does is to say 
that, if they are to repurpose their land that they could get a 
tax deduction for that and that this would help us. The key 
there is repurposing it. What we don't want to see happen is 
for them to lose the land or to turn it to some other use. We 
want to see them continue to have it to be forest land, and 
that is what my bill does and what it encourages because 
resiliency is extremely important and our forests are extremely 
important to that as well.
    Let me move on to talk about community resiliency because 
it is important today to understand--I also have the honor and 
privilege of representing the entire coast of Georgia, 
including 110 miles of pristine coastline, and our coast has 
been hit by these natural disasters that you mention. Three 
years in a row, we had hurricanes and this year we just barely 
missed one with Dorian, but we did miss it, but we still--this 
is something that impacts us very much.
    Mr. Fugate, how urgent do you believe it is that we bolster 
our communities and make them more resilient to withstand these 
types of weather events?
    Mr. Fugate. I think we can't talk about it anymore; we need 
to do it. My mama's from Screven. I used to go down----
    Mr. Carter. Your mama's from Screven.
    Mr. Fugate. Yeah. We used to go down to Jekyll Island. I 
grew up on that part of the world. And what we know, both 
across all of the Gulf Coast areas and the Atlantic Coast is, 
we built communities for the past. And when people talk about 
resiliency, we don't have a good measure. So I would like to 
introduce a measure because I think this would go right in line 
of what you are looking at. We need to start looking at the 
resiliency of the tax base of these communities because we are 
talking about infrastructure and other things, but what it 
ultimately comes down to and what Moody's and others are 
concerned about is, what is the financial risk that communities 
have and what are they doing to offset that risk.
    And this goes back to where and how we build means that tax 
base will be there after disaster. We are seeing in the 850 
panhandle right now Jackson County, Marianna, and other places 
that their property values have decreased and are not coming 
back. We saw this in Hurricane Andrew in Homestead City when 
the Air Force base closed. We are seeing this in Paradise from 
the wildfires in California. Those communities don't have a tax 
base. And as the chair will tell you, when you are a local 
official and your tax base is decreasing at the same time 
demand for services are increasing, you go into a death spiral 
and you can't recover. So I think we need to talk about 
resiliency of tax base and use that as the first nationwide 
measure of where our vulnerabilities are and where we need to 
be investing to ensure that communities have resilient tax 
bases.
    Mr. Carter. And that is a great point. And probably the 
most important point there is just how we should be working 
with local communities as well, and that is extremely 
important. Madam Chair, I am out of time, but thank you very 
much.
    And I yield back.
    Ms. Castor. Thank you, Mr. Carter. Thank you.
    [Disturbance in hearing room.]
    Ms. Castor. We are--thank you very much. We are working on 
climate solutions. We don't have time to waste and that is why 
I am going to go to Mr. Levin for 5 minutes. Thank you very 
much.
    Mr. Levin, you are recognized for 5 minutes. Please. I 
don't want to have to ask you to leave. I really don't, so 
would you let Mr. Levin ask--no, no, no. We get to ask the 
questions. We will be happy to----
    [Disturbance in hearing room.]
    Ms. Castor. Yeah. Thank you very much. True. We have had 
those hearings. Okay. Mr. Levin.
    Mr. Levin. Thank you, Chair Castor. I want to echo your 
earlier comments. I believe we are in a climate emergency, and 
I am on the resolution--I am on the resolution stated as such. 
There is a--all right, please.
    [Disturbance in hearing room.]
    Ms. Castor. Please, I don't want to have to ask you all to 
leave. Can you please listen to the testimony, and then help us 
develop these solutions? Mr. Levin.
    Mr. Levin. In California, we are experiencing a climate 
emergency firsthand in real time, and it is not some scientific 
theory. It is not some hypothetical. We are seeing it every 
single day with extreme wildfires, year-round wildfires that 
are causing unprecedented problems in our state. Ms. Hill, you 
said it well. We see planned power blackouts affecting millions 
of residents, and I am trying, as best as I can along with our 
California delegation, understand how we best deal with it from 
the Federal level, so I would like to ask both Ms. Hill and Mr. 
Fugate. Mr. Fugate, thank you for your service during the Obama 
administration. What sorts of wildfire mitigation projects have 
been the most effective in your experience at reducing the 
risks and costs of wildfires?
    Mr. Fugate. Actually, two programs that are not Federal. 
The first one was California coming up with better building 
codes. We know particularly in the Camp Fire that the fire 
started in embers. The roof materials were a big factor in 
flame spread, and so I think California's taken that, but we 
have a built infrastructure of homes that aren't there yet. 
Another one was a program that was instigated by the National 
Fire Protection Association called Fire Wise. Steps we can take 
right now to reduce vulnerability to homes such as landscaping, 
just managing debris around homes, ladder fuels, and things 
that can reduce the impacts of wildfires, and then you as 
Congress, after the disaster 2017, reauthorized or made changes 
to the Stafford Act. For the first time, we have permanent 
authorization to provide mitigation dollars under fire 
management grants that can again go back, but we also have to 
look at the fire risk as a two-stage threat. It is the fire 
that does the initial devastation. Then it is the flood risk 
and the mud flows afterwards that will be caused by all the 
scar burn.
    So, again, I think what California took was a first step. I 
think there are programs like Fire Wise that can give us 
immediate tools to help communities and homeowners reduce their 
risks, but I also think we need to look long term, as was 
pointed out by Judge Hill. Where we build and how we build is 
the future, but how do we take care of the people that are 
already in the interface.
    Mr. Levin. So, at the Federal level, how can we supplement 
some of those best practices.
    Mr. Fugate. Again, I think you are providing mitigation 
dollars which will allow communities to now start doing things 
other than structural mitigation. We have learned a lot about 
how we can control fuels around our yards, the vegetation 
management. I know this is a controversial issue, and I am from 
Florida where we do silviculture. We do a lot of controlled 
burning to manage vegetation. We learned after 1998 that if we 
don't do control burns, we end up in the interface with 
uncontrollable wildfires. That is not a very easy discussion to 
have in California, but I think it is one that has to be looked 
at, is fuel reduction during the extreme wet periods so that 
when you go into the drought periods, there is less fuel 
available, it is managed when it can be managed, and it will 
help reduce as we have seen in other parts of the world as well 
as Florida. It can reduce the severity of the wildfires, but it 
is not a silver bullet. There is a lot of things you have to 
bring together to start seeing that curve bend.
    Mr. Levin. Ms. Hill, briefly, if you can answer the same 
question because I would like to move on to some other things, 
but what are best practices you have seen in terms of 
mitigating wildfires? What can we do on the Federal level to be 
most supportive?
    Ms. Hill. Thank you. I do agree that it is a difficult 
area, but prescribed burns are proven to reduce the fuel, and 
that would keep the fires to be less hazardous. I also think 
that we need to look at supplementing or helping communities 
look at their risk as a community because it is not--if one 
house catches fire, it may well be that other houses catch 
fire. And if in a community you have an individual living in a 
home who does not have the means, for example, to replace a 
wood shake roof, which is like piling kindling on top of your 
roof, according to firefighters, we need to help that community 
come together to make the entire community safe as a result of 
fire.
    We are just at the beginning of this. I don't think there 
is deep understanding of how these fires interact with the 
built environment, and we need to fuel more money to have 
research in fire dynamics so we understand better how we can 
safely build and live in a wildland-urban interface.
    Mr. Levin. Mr. Berginnis, I want to follow on and talk 
about the effects of floods in the areas that have experienced 
wildfires. Could you talk about whether Federal programs really 
appreciate the risks of floods that follow the wildfires, or 
what should we be doing differently--in particular, you know, 
providing adequate support to the communities that are working 
to address both the risk of the fires and the floods.
    Mr. Berginnis. Sure. I think the Federal Government is 
beginning to figure that out. The passage of the DRRA in 2018, 
of course, now triggers hazard mitigation with any FMAG 
declaration, fire declaration, and it is kind of two sides of 
the coin, right? After a wildfire, your next biggest threat, of 
course, is going to be flooding and dealing with that. And also 
Craig had talked about Fire Wise as a program, and, again, I 
kind of go back to the concept: Congress can implement these 
things in terms of a technical or financial incentive or take 
away disincentives for not doing things. And so, again, a 
program like Fire Wise is a voluntary program right now much 
like in the Flood Insurance Program, the community rating 
system is, but at what point in our communities that are facing 
extreme risks, at what point do we try to normalize those 
programs or make them required or mandatory so that they are 
incorporating the latest risk reduction approaches as part of 
community's business. And so I think far too communities are on 
Fire Wise much like--or far fewer communities are in Fire Wise 
that need to be and similar with the CRS. So whether the 
Congress does that by linking that as a requirement in order to 
get financial assistance or whether it incentivizes it through 
some sort of additional financial or technical assistance are 
two options.
    Mr. Levin. I am over time, but I thank you all very much 
for your answers. Look forward to working with you.
    I yield back.
    Ms. Castor. Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you so much, Chair Castor.
    Thank you to our witnesses for being here today. I just 
want to mention briefly that the group exercising their First 
Amendment rights has left the room at present, but I want to 
say: We hear them. We understand. They are really concerned, 
and they have a lot of anxiety about what they see for their 
future for this planet. So I am a cosponsor of my Oregon 
colleague Representative Blumenauer's bill to declare a 
national climate emergency. We need to send a message that we 
must take action, so I just wanted to put that on the record 
that there is that bill, but we really need to take this 
seriously. And I understand, although I don't agree with the 
disruption, I do agree with them raising their voices in a 
peaceful way to get the message across.
    So, according to the fourth national climate assessment, by 
2025, if we don't address our aging and deteriorating 
infrastructure, it is going to cost up to $3.9 trillion, close 
to $4 trillion to repair and replace it. More than 60,000 miles 
of our roads and bridges are already experiencing extreme 
storms and hurricanes that are costing billions to repair. We 
know that sea levels are rising. Could be one to four feet by 
the end of the century, devastating many coastal communities 
including--I represent the north coast of Oregon. The frequency 
and depth and extent of tidal flooding is expected to continue 
to increase in the future with coastal storms and today's 
infrastructure and building standards simply do not take those 
future trends into account, and that is why we are here today 
to talk about that.
    Current levels of infrastructure investment in the United 
States are not enough to respond to the threats of the climate 
crisis, and I don't know if this was brought up before I 
arrived, but my other Oregon colleague, Mr. DeFazio, who chairs 
the Transportation and Infrastructure Committee is talking 
about making those infrastructure investments in a sustainable 
way.
    Ms. Hill, in your testimony you discuss how the Federal 
Government's resources and data on climate change risks is not 
often easily understood or even accessible to local decision 
makers on the ground. The example you provided of the mayor in 
Alabama that sort of echoes the concerns that I often here from 
communities across Northwest Oregon, especially those smaller 
communities where, as Chair Castor was saying, they might not 
have planning staffs and people to do this work to sort out and 
decipher all the Federal information.
    So how can Congress better support a synthesis of existing 
Federal research and assessments and identify gaps to help 
especially our local governments?
    Ms. Hill. We need to have a customer-focused approach. 
After Hurricane Sandy, the Hurricane Sandy Rebuilding Task 
Force worked hard to make our programs comprehensible to those 
who needed to access them. Right now, we have datacenters 
across the United States set up by various agencies--FEMA, HUD, 
agriculture. Those all service their particular constituencies 
and fulfill their missions, but for that part-time mayor or 
that planner who has got a busy schedule, it is very difficult 
to make sense of our programs. They sometimes have conflicting 
requirements. We need to streamline this with a view to making 
it accessible to those who need Federal support, and we also 
need to make sure that every single one of our programs is 
screened for climate resilience to make sure that we are not 
inadvertently supporting development that is not resilient.
    I would say, in the area of infrastructure as well. We need 
to look at our cost-benefit analysis. Our cost-benefit analysis 
is not permitting us to make the types of investments in 
resilience that we need to have for very long-lived structures.
    Ms. Bonamici. Right. It requires some long-term thinking.
    Ms. Hill. Yes.
    Ms. Bonamici. You suggested providing better technical 
assistance. I absolutely agree that that be done in a way that 
is accessible to those, especially those front line 
communities. I hope we can all work together on that.
    Mr. Fugate, did I say your name properly.
    Mr. Fugate. Yes, ma'am.
    Ms. Bonamici. In your testimony you referenced a study by 
the National Institute of Building Sciences that found that 
investing in mitigation saves society $6 for every dollar 
invested. In the Pacific Northwest, we don't see climate change 
as a distant threat. It is our reality. It is important to 
support those communities as they make those investments in 
resiliency, but when facing multiple threats, wildfires like my 
California colleague talked about, sea level rise, flooding, 
extreme weather, warmer temperatures, it could be challenging 
for local decisionmakers to determine where to put their money 
first and how to set priorities. How can we better assist 
communities in determining which aspects of the built 
environment are most immediately vulnerable to climate change, 
and do we need to develop some best practices for use on a 
regional scale?
    Mr. Fugate. Yes. I know the National Institute of Standards 
has been working on this. We have a lot of people talking about 
resiliency. We don't have a measuring stick. I don't think we 
can wait for perfection. We just need something that we can 
apply uniformly across the Nation, across multiple risks. That 
is why I look at tax base. There is a cautionary tale to that, 
though. As Judge Hill points out, cost-benefit analysis is 
always looking backwards, but it also favors the highest value 
property. So for Chair Castor, what we would see if I am 
planning mitigation projects, all things being equal? I tend to 
apply mitigation projects to the more affluent areas in my 
communities because they have the highest tax value, and I tend 
to underprice the more vulnerable communities because they are 
not going to save as much tax dollars. So I think we need to be 
making sure that when we talk about resiliency, it is not for 
the affluent alone.
    Ms. Bonamici. Thank you. I know I am over time, but if I 
could briefly follow up on that. We are also, in the Pacific 
Northwest, overdue for earthquake and tsunami because of the 
Cascadia subduction zone, and I think of places like Seaside, 
Oregon, a small town over on the Oregon coast where, for years, 
they worked to pass a bond measure so they could move their 
schools out of the tsunami zone, and it took a very long time 
because it takes people stepping up and saying: I am willing to 
pay more to make sure that my kids are going to go to a school 
in a place where they are going to survive an earthquake and 
tsunami. They finally were able to pass that bond. There was 
some land donated, and they are opening their new school 
outside of the tsunami zone, and it was students who really 
made the case. Some high school students made a video and said 
that we are starting the clock now, and now, 15 minutes later, 
we are active, healthy high school students, and we are still 
on flat land, and we are going to be underwater. So it was 
really compelling, again, the voice of youth helping to make 
the case. It is resiliency because of a natural disaster, but 
certainly analogous to what we are facing with the climate 
crisis. And thank you for your indulgence.
    And I yield back.
    Ms. Castor. Mr. Graves, you are recognized for 5 minutes.
    Mr. Graves. Thank you. Thanks again for being here, and I 
apologize that I was unable to be here for your testimony, but 
I will finish going through your written testimony. 
Administrator Fugate, you and I have had the opportunity over 
the years to talk about this appropriate balance of proactive 
efforts, and you were a big advocate of predisaster mitigation, 
and we did the BRIC program last Congress. Could you talk about 
your thoughts on where and how do you strike that right balance 
for coming in and making resilient investments versus picking 
up the pieces after a disaster and based on your extensive 
experience in disaster management and recovery efforts, how do 
we do a better job with that?
    Mr. Fugate. I don't think we start on the backs of people 
who already live in flood-prone areas or other risky areas that 
are not affluent. I am a big supporter of Risk 2.0 that FEMA's 
looking at to price risk, but also think it has to be means 
tested.
    Mr. Graves. You might be one of the only people who 
actually knows what it is because everybody else calls it a 
black box, but please, go ahead.
    Mr. Fugate. But it is the idea that we should be pricing 
risk closer to what market value puts on it, but in your state, 
in particular, but throughout much of the country, it isn't 
coastal property with expensive homes that I am most concerned 
about with this program. It is the existing homeowners that 
were built in many cases before we had flood data or is 
underestimated flood risk that if we priced them out of their 
homes, I don't think that is good policy. But then you have to 
have the balancing act that is actually now subsidizing 
development in coastal areas for affluence that is increasing 
the exposure and risk, so to me we need to take care of what we 
got. We need to quit growing the risk, and I think that is 
where pricing market moving back to the private sector, 
providing less incentives for the Federal Government to step in 
every time you are having recurring events and then start 
making investments, not that we are not going to build, but we 
are going to build differently in ways that are sustainable 
against future risk.
    Mr. Graves. How do you--what you just hit on and again 
going back to conversations years ago, those are tools that are 
often controlled by the State or the local governments. How do 
you integrate those into your overall toolbox and planning 
efforts?
    Mr. Fugate. I am from local and state government and being 
up here at the Federal level gave me a different perspective, 
but I always go back to, our theory is decisions are best made 
closest to where people live. However, Congress has a big 
checkbook and people are responsive to the availability of 
funds or disincentives in those funds to change behavior. And I 
think that is those levers that Congress has, like the National 
Flood Insurance Program. It requires local governments to adopt 
building codes that no other program has because the program 
says if you want to be in the program, you got to adopt the 
codes, otherwise, we are not going to provide it. I think those 
are the tools, Congressman, you have to look at is, what are 
things that governments at the local and state level would be 
most responsive to and can we give them--not immediately ``you 
got to change, or you are done''--but can we give them a glide 
path that says, ``We are going to give you a chance to start 
moving in this direction.'' But if you don't move in this 
direction, there is going to be pain.
    Mr. Graves. What do you do for people in south Louisiana, 
for example, communities that have been there for hundreds of 
years sustainably that, all of a sudden, because of changes 
that they didn't have anything to do with, more water coming 
down, Gulf of Mexico encroaching on them as a result of river 
management practices by the Corps, how do you treat them? They 
didn't have anything to do with the vulnerability they are 
experiencing today. How do you treat those people? How do we 
address that from a fair policy perspective?
    Mr. Fugate. I don't know if there is fair, and I don't know 
if there is an easy answer. And I am afraid we are going to be 
telling far too many people in your state, my state, and others 
that we are not going to be able to rebuild back the way we 
were after the disaster and that some communities are not 
coming back the way they were that have been there for 
centuries. We are seeing this in the Florida Gulf Coast.
    So we have to look at where we can come back, what we can 
do differently, but what we cannot come back or doesn't make 
sense, how do we provide the transition for people to pick up 
and move on with their lives with some certainty versus the 
inevitable delays and buyout programs and promises that never 
materialize, and they are back where they were to get hit 
again.
    Mr. Graves. Under our coastal master plan, we did just 
that. We effectively drew a line in the sand and said: If you 
are below here, we don't have the resources to protect you for 
whatever other reason we can't, but we did say, we will help 
provide assistance to elevate homes or to relocate. And I will 
tell you, that is a really tough decision because people don't 
deserve it, and it is not fair, as you have indicated.
    Ms. Hill, would you care to comment on that balance issue 
that I asked the Administrator about?
    Ms. Hill. I fervently agree with his comments. We are going 
to have to have a glide path for those who are in areas that 
will no longer be safe to live in. The land will either be too 
soggy or too at risk of wildfire for them to be there or some 
areas will be too hot. We haven't looked at all this. It will 
be an equal opportunity disaster for many in America, and we 
have to address how do we help them get out of situations, 
which, as you have pointed out, were not of their making? It 
simply reflects decisions made on historical risk.
    We now know that the climate is changing. Building to the 
past will not keep us safe. Land use decisions made on past--
based on--past extremes will not keep us safe, so what do we do 
with those that are already there? The one thing that is clear: 
Let's not add any more to those that are at risk. So that 
should be a bright line rule going forward just as you have 
said, but we need to figure out how we will help those who are 
already at risk find safer ways to live and thrive.
    Mr. Graves. Thank you.
    Madam Chair, in closing, I do want to make note, I heard 
Mr. Berginnis in his opening statement reference Pecan Acres, 
and I do want to be very clear that we are the ones who secured 
the funds through NRCS as well as the FEMA funds that are being 
used for the relocation. I want to give a shout out to General 
Honore; our chief of staff, Paul Sawyer; and others that have 
been working on getting that package put together; and Pat 
Forbes at the state, but thank you for mentioning.
    I yield back.
    Ms. Castor. Mr. Casten, you are recognized for 5 minutes.
    Mr. Casten. Thank you, Madam Chair. Got here in perfect 
timing. Thank you all so much for coming.
    I really want to dig into this conversation about flood 
insurance. I sit on the Financial Services Committee. We have 
had hearings on this. We all, I think, around this whole room 
understand the core issues that this program that was created 
as an insurance program, which is really well suited for things 
that are expensive, rare, and unpredictable, doesn't work as 
well when they are only expensive. And I think we also all 
recognize that there is--there is a fundamental equity problem 
that, if we charge the market rate for insurance, people aren't 
going to have insurance, not the people in the low-lying areas 
who most need it and I don't think we have a choice as human 
beings about whether or not we look out for those in need when 
they do get flooded. So we still end up paying; we just pay 
through a different mechanism.
    I appreciated your testimony, Mr. Berginnis, and I am going 
to put you on the spot for the million-dollar question, because 
if you solve this question, we can all have fewer hearings in 
Financial Services. How do we solve that basic equity problem? 
We can't force people to move to the expensive parts of town if 
they can't afford to live there. We can't charge a rate that is 
market rate and expect them to pay, but we do have to look out 
for our fellow man. How would you like to see us solve that?
    Mr. Berginnis. So I think it is making changes to multiple 
programs starting off with the National Flood Insurance 
Program. I agree with Craig 100 percent, risk rating 2.0 is 
important from the psychological aspect to communicate to folks 
what risk is based on what the full risk rate is. Now, of 
course, as you are well aware, within the NFIP, we have a 
safety net against that with the rate caps, and I think one of 
the things that Congress is looking at is changing those, once 
again, which would in effect lengthen the glide path, and so, 
for folks that may not be able to afford it, it really buys 
time to be able to do that. Also, I know, in the House 
legislation, there is a means tested approach to help those 
that can't afford the insurance. I am always struck by the name 
of the NFIP because I actually think it is the worst named 
program in Federal Government. Because in working with it my 
whole career, it is four programs in one. It is an insurance 
program. It is a land use and planning program. It is a hazard 
mitigation program, and it is a data and mapping program. And I 
would urge Congress that, as you are thinking about changes 
into one knob, think how it affects the other pieces, right.
    And so, for instance, the whole discussion on private 
flood, one of the concerns that we have raised is the fact 
that, you know, you have too much going to private flood. It is 
the NFIP policies that fund 100 percent of the floodplain 
management efforts within the program. So we have got to figure 
out how to do that. But then, outside of the NFIP, so you have 
those lower income property owners that are having a hard time 
with paying for the insurance. They are making the decision 
between the medications, food, and insurance. They are in a 
really horrible situation, and how can we help mitigate that? 
We have not in our mitigation programs put enough emphasis on 
kind of end-to-end resiliency and what I mean by that is that 
we tend to focus on, okay, you know, what is the safe and what 
is the most cost-beneficial approach? What we don't focus on is 
the fact that folks need affordable, safe sanitary housing to 
be able to go to. And so we need to make sure that we are 
marrying up, whether it is a mitigation program by FEMA with 
HUD programs to make sure that we are funding the relocation 
assistance that they need or else even, I think in the Pecan 
Acres approach, they are actually funding to build new 
affordable houses for folks to live in, and I think we have got 
to look at that end of it.
    Mr. Casten. So I totally agree with you on that. Do you 
think that that program is sufficient if we don't also have 
covenants on the redevelopment of the land after we move them 
off those low lying areas?
    Mr. Berginnis. No. I don't think it is sufficient from the 
standpoint either of the resources we have and the one thing 
that I do have a concern about, and it goes back to the data 
issue, and even on the example I talked about with Pecan Acres, 
what is the flood risk in 50 or 100 years on the site that they 
are going to? So we are making big investments now, but if we 
don't have the data we are still flying blind. And so we got to 
have that data too.
    Mr. Casten. As Mr. Graves started by saying that I was not 
in a coastal area, hopefully, this will all increase property 
values in Illinois sixth as people come to an area that is 
not----
    Ms. Castor. Flooding is everywhere.
    Mr. Casten. Yes. Thank you so much.
    I yield back.
    Ms. Castor. Thank you. Mrs. Miller, you are recognized for 
5 minutes.
    Mrs. Miller. Thank you, Chairman Castor, and thank you--
well, he is gone. And thank you all for being here today. In 
2016, West Virginia suffered catastrophic floods that resulted 
in the loss of lives of 23 people. Our communities are still in 
recovery mode today. We currently have critical infrastructure 
that needs to be rebuilt, and I want to ensure that, as we move 
forward, that this process when we are rebuilding, that we have 
resilience at the top of our mind.
    Mr. Fugate, in your testimony you discussed about how after 
a disaster we must rebuild for our future risk. How can we 
better engage with our State and local governments on this 
topic?
    Mr. Fugate. Well, part of it is FEMA, but I remember we 
went round and round not to rebuild those elementary schools 
back where they flooded. We got heat from local officials, we 
got heat from parents, people that lived there all their 
generations didn't want to move those schools. They would be 
further away. And we stood our ground, but we also were 
fighting an internal battle at FEMA that our cost-benefit 
analysis wasn't supporting the decision to relocate them, just 
repair them as they were, and I am like: Are you insane? We are 
going to put elementary schools back where it flash flooded? We 
were fortunate school was not in session, but what would have 
happened if those schools had been occupied.
    We have to give clearer guidance to FEMA that cost-benefit 
analysis isn't about an insurance policy looking at how much it 
saves the taxpayer if we do something different. It is about 
the function. It is about the life safety. And in many cases, 
it won't even be the dollar value. It is the societal impacts 
of not doing something that we need to address.
    Mrs. Miller. While pre-disaster mitigation helps save money 
after a disaster occurs, the upfront investment can be cost 
prohibitive for local communities. What can be done to make 
pre-disaster mitigation more affordable?
    Mr. Fugate. If we are only going to spend money to fix 
stuff we didn't do right the first time, it ain't going to 
work. We have to invest in pre-disaster mitigation for built 
infrastructure, but we also have to encourage local and state 
governments to adopt the building codes and land use standards 
to quit making it worse, and that means we have to build to the 
future.
    The other thing is we got to do a better job disclosing 
risk. You know that most states don't require you to disclose 
prior flood risk? That I can go buy a home that has been 
flooded, and there is no requirement to disclose it? We need 
truth in advertising. I think this is something else that is 
pretty straightforward we could do, but either here or in the 
flood insurance bill is required, if you are going to 
participate in the National Flood Insurance Program, you 
disclose flood risk and flood history before you go to close.
    Mrs. Miller. In certain states, vulnerable or low-income 
populations usually do live in areas that are more at risk for 
a natural disaster. How can we empower this population to 
engage in pre-disaster mitigation on their homes?
    Mr. Fugate. Bring them to the table. I remember a Deputy 
Secretary said: Nothing about you without you.
    And I think we do not engage the public and the communities 
at risk in these discussions. I think when they make the 
decisions, we are much more successful. When they look at the 
information, they look at what the options are, but if you look 
at most of our programs it is always government to government, 
and we tend to leave out the communities we are trying to 
serve.
    Mrs. Miller. Well said.
    Ms. Hill, in your testimony, you discussed how local 
communities lack technical assistance. I know many communities 
in rural Appalachia that could certainly benefit from such a 
program. How would you suggest deploying such a program around 
the United States, particularly in rural communities?
    Ms. Hill. We need a cadre of trained personnel who can take 
the tools and data that currently exist and help communities 
understand how those materials can assist them in their 
decisionmaking, but if we only leave our information and our 
data on the web for some busy person to flip through screens to 
try to determine what decisions they should make, a community 
should make, I do not believe we will get to success. We need 
to have individuals who represent the Federal Government, not 
necessarily their solely their agency, but are familiar with 
all the programs that will help communities be stronger and can 
wade through the different regulations, the different 
requirements to get them to success.
    Right now, our approach is solely based on what is 
convenient, in my opinion, for the Federal Government. We need 
to flip this. It is what works for our communities. We need to 
have invest in their interests in learning what their risks are 
and how they can do better.
    Mrs. Miller. That is good. From your experience in this 
field, do you think the public and community leaders adequately 
know what resiliency means and what role they have in 
preventing it?
    Ms. Hill. No. I don't think most leaders have the 
opportunity to learn about climate risk and what it may mean 
for their community. It is difficult to find accurate 
information, even based on past risk much less future risk. 
This is an urgent issue because we are seeing--and forgive my 
framing it this way--stupid decisions being taken across the 
United States now in very expensive investments. There is no 
way to screen currently to make sure that Federal investments 
in infrastructure are resilient, and that means that we see 
many examples that have occurred in recent history with huge 
dollar price tags attached which will not be resilient to risks 
that will unfold during the life of the structure.
    That seems to me irresponsible use of taxpayer dollars, not 
to insist that, if we hope the bridge lasts 50 years, we 
understand what the risks are to that bridge, and build a 
bridge that can withstand it.
    Mrs. Miller. With so many different types of geography in 
our country--and I know in my particular area, most people are 
settled down at the base of mountains, but when you start 
talking coastal and just--you can't have the same plan 
everywhere, and so, when you talk about having educated people 
for X, Y, and Z, you wouldn't send the Z people to the X; you 
would send the right people to the right district to help 
educate them.
    Ms. Hill. Absolutely. One of the best ways to start is 
scenario-based planning with the community. Meet with the 
leaders and stakeholders in the community, have the charts, the 
maps, the visualization of what the future risk is and work 
through what is your hazard mitigation plan, what is your 
future plan, and what is it going to look like after you have 
the next flood, and we need to make the decisions about where 
you will rebuild in a safe manner for those who enjoy your 
community.
    Mrs. Miller. Thank you.
    I yield back.
    Mr. Berginnis. May I----
    Ms. Castor. Go ahead.
    Mr. Berginnis. If I could add just a little bit to the 
questions, Congresswoman. I wanted to underscore something that 
Craig had said in terms of both codes and land use standards 
and understanding that land use standards are as important as 
having strong codes. So, for example, when you are laying out 
and designing new subdivisions--and I worked in Ohio, so next 
door neighbors to West Virginia in the Appalachian foothills, I 
worked with those communities, and there is a lot that can be 
done. One of the things that ASFPM developed is a guide on 60 
optional higher standards to make your subdivisions safer and 
we provide that to States and communities, but the other piece 
of this that I think is missing that hasn't been talked about 
yet is State capacity.
    The best way we helped our smaller communities, our more 
impoverished communities in Ohio is, when we have the state 
capacity at the state level, that knowledgeable cadre of 
experts in the state floodplain program or in the state 
mitigation program to help do that. And so, in the National 
Flood Insurance Program, there is something called the 
Community Assistance Program, CAP-SSSE and, in fact, Mr. 
Casten's committee, Financial Services, in the NFIP reform bill 
is looking to make that a statutory program.
    In the mitigation side, we don't have anything that is 
parallel, and what CAP does, it actually helps fund state level 
floodplain management experts who can in turn help communities. 
On the mitigation side, when you look at most state mitigation 
programs, they have maybe one, two, three people in there. They 
probably need to have ten or 20 people, and I would argue that 
having an incentive program like CAP-SSSE for mitigation can 
help get you to the objective that you are seeing.
    Mrs. Miller. Thank you. I hope I get one of those books.
    Ms. Castor. Great. I have just a few questions before we 
close out, but everyone will have an opportunity if you all 
would like to ask some other questions as well. I have been 
able to go to various communities across the country and ask 
them what they would need as we develop recommendations for a 
climate action plan involving adaptation, and to a community, 
they have said, we need more predisaster mitigation resources 
to help us with this.
    Do you all know what scale are we talking about? What 
should we be considering as we follow through with that 
recommendation?
    Mr. Fugate. I will give you a number, and you are not going 
to like. If you look at what the backlog currently nationally 
of infrastructure projects and you look at mitigation and what 
it would take for predisaster mitigation to adapt, you are 
talking a trillion or more dollars. That is why we got to quit 
growing the risk. We are never going to get caught up. Things 
such as National Flood Insurance Program, we got to take care 
of what we got, but we got to quit growing the risk. Just stop 
writing flood insurance for new construction and let the 
private sector market manage that.
    We need to get stronger building codes and land use 
planning, and then we need to start looking at--it will not be 
an equal impact with climate change across the country. And if 
you look at the identifiable threats we are going to see first, 
it is the extreme rainfall events, the extreme heat, drought, 
and wildfires, and sea level rise will not affect every area 
the same. And this is easier to talk about in this body, but 
next door in the Senate, they are very much 100 divided by two 
is how they calculate financial distribution. And as much as we 
fought this with Homeland Security, we are going to have to 
make prioritization on our limited funds that we are not going 
to be able to fix everything in every community, but we are 
going to have to come up with a bench mark of how do we measure 
our resilience exposure. Our tax base would be one way, and 
then make investments to start buying down that risk where one 
technology exists, the practices occur, and we have good data. 
Quite honestly, some of this we don't even have yet, and I am 
not sure making investments there would give us the fastest 
return.
    As the folks in the back said, even if you stop all of your 
emissions today, we are not going back. The only question is, 
how much worse is it going to get?
    Ms. Castor. What else can you all add on the scale of pre-
disaster mitigation?
    Mr. Berginnis. When I think about the scope of just 
repetitive flood loss properties in the country, we have over 
150,000 of those. That means those are the ones that are going 
to be more vulnerable than the ones that just have flood 
insurance and really not had the claims. And then you multiply 
out the value of the home, and you are talking an 
astronomically huge number. I think we also need to think about 
the concept of kind of a force multiplier and how can we 
incentivize States to invest in mitigation programs.
    You know, the State of Texas just earlier this month passed 
a constitutional amendment that sets up State-funded mitigation 
program basically for flooding. Finally, I think after 3 years 
of 500-year floods, Texas got it, and they are now beginning to 
invest some of their own funding, and I think part of the 
solution is making sure that the State has mitigation--has 
their own mitigation program available that can help, 
especially things that are not declared at all.
    The other thing I would say is that, even though there is 
the theory and the desire of predisaster mitigation investment, 
we have to always remember the psychology of disasters, and I 
have been to communities, I have tried to sell FEMA's 
predisaster program, and on a sunny day when nobody is 
displaced, most of the time, they say: We don't need to do 
mitigation. We don't want to go through that hassle of 
elevating.
    And so there is always going to be a role for postdisaster 
because, unfortunately, it takes the disaster to change the 
mindset that, hey, we actually need to be more resilient as 
property owners.
    Ms. Castor. Judge Hill, do you want to add--I have one more 
question after this.
    Ms. Hill. Sure. As has been noted, the scale is really 
massive, but we must remember: If we don't start mitigating and 
making these investments now what is the economic cost to the 
United States as you project this out. And, of course, that is 
what is behind the Government Accountability Office--of their 
concern--of placing this on the high risk. One of the bright 
line rules I think we should adopt immediately is we will not 
spend in a way that is not resilient going forward. So the 
limited funds that we have that may not be marked as 
mitigation--it may be just simply an investment in a grant 
program--we are not going to spend unless we are assured it is 
resilient to the future impacts that we expect.
    Ms. Castor. One last question for me, and then Ms. Bonamici 
can close us out. So a lot of local communities and states have 
reserves and rainy day funds, but the Federal Government 
doesn't do that. Instead, we have a natural disaster and then 
an emergency aid bill that doesn't really sometimes arrive in a 
community on an emergency basis. Gosh, we have had partisan 
food fights and even Hurricane Michael, those folks were left 
out to dry. So, when it comes to the Department of Defense, 
they have a multibillion dollar overseas contingency fund for 
contingencies when it comes to defense issues. Isn't it time to 
be reconfiguring Federal budgeting so that we actually have a 
rainy day fund of some sorts or catastrophe fund that is front-
end loaded and we have those resources ready to deploy?
    Mr. Fugate. Chair Castor, when we went through 
sequestration we ran out of money for Hurricane Irene and 
Disaster Relief Fund, we came up with a good plan. I think Jack 
Lew and Speaker Ryan, and that actually has worked and balanced 
out, and, except for extreme events, has not required Congress 
to do immediate funding. In fact, money was there for the 
Michael response recovery. Unfortunately, the bureaucracy is 
slowing down getting that money.
    But there is one area that I think Congress should act on--
the ranking member has been talking about this; he has been 
looking at how to do this--is, if we are going to use HUD as a 
major funding for long-term cost of disaster impacts, they need 
permanent authority. This, every time they get appropriations 
starting from scratch, delays getting money out for a year or 
more.
    HUD if they are going to be part of this team, they need 
permanent authority and they need staff. And this should not be 
we have to create the wheel every time Congress uses that 
mechanism to address the longer term issues that communities 
face.
    Ms. Castor. Any other comments? All right.
    Ms. Bonamici, you are recognized.
    Ms. Bonamici. Thank you very much. I just want to add 
another point. Once we get the policy and the funding, we 
absolutely need the workforce because when we are doing all 
this work, we have to have the people with the skills out there 
to actually put it into place. So I have a bipartisan bill, the 
BUILDS Act, which is about making sure that we have a workforce 
when we invest in infrastructure. So I came here from a hearing 
on apprenticeships. It is just a challenge with so many of 
these, whether it be housing or infrastructure, we need to have 
the people to do the work so we need to fill that gap as well, 
the skills gap, so I just wanted to add that.
    If we really want to get the work done, we have to have 
people to do the work, and I thank the chairwoman for allowing 
me to add that point.
    Ms. Castor. Well, thank you very much. Thank you to our 
witnesses. This was an outstanding hearing. I am sorry that 
there is so much else going on on the Hill today. We couldn't 
have a full panel of members. And this is a reminder to 
everyone who is tuned in here that we are seeking policy 
proposals on the greenhouse gas mitigation side and on the 
adaptation side. We have a request for proposals, request for 
information on our website. Please if you have policy proposals 
for the committee, please send them to us. The deadline is the 
end of this week. Thank you again for being here. The committee 
is adjourned.
    [Whereupon, at 2:58 p.m., the committee was adjourned.]
                              ----------                              --
--------


                 United States House of Representatives

                 Select Committee on the Climate Crisis

                      Hearing on November 20, 2019

                ``Creating a Climate Resilient America:

                       Reducing Risks and Costs''

                        Questions for the Record

                        The Hon. W. Craig Fugate

                               Principal

                      Craig Fugate Consulting LLC

                       Former FEMA Administrator

                       the honorable kathy castor
1. In your testimony, you emphasized the importance of being able to 
        measure community resilience. How does the tax base of a 
        community affect its resilience? What sorts of climate-related 
        metrics should the federal government use to measure the 
        resilience of a community, institution, or system?
    Measuring the Resilience of a community's tax base is a key vital 
sign of vulnerability to climate change impacts. Global warming 
immediate and long-term impacts include extreme rainfall events, 
droughts and increased wildfire risk, more destructive tropical storms, 
and sea level rise.
    Think of the tax base as a vital sign, like a pulse, it will not 
tell you everything about the community, but like a pulse, lack of one 
is death. A slow or weak pulse, like a tax base below the cost of 
running the community's government, will impede the recovery after a 
disaster or loss of tax base due to sea level rise.
    My observations of recent disasters underscore the risk to housing 
stocks at risk from weather related hazards. From the devastation of 
wildfires to Paradise, Ca <SUP>i</SUP> to the impacts of Hurricane 
Michael on the Florida Panhandle,<SUP>ii</SUP> loss of housing impacts 
tax base revenues, workforce housing, and the speed of recovery.
    Tax Base as a measure of resilience provides the ability to measure 
multiple hazards and their impacts to a community. Key vulnerabilities 
to housing, businesses, and critical infrastructure by floods, 
hurricanes, wildfires, and other natural hazards are based on:
          <bullet> Hazard Impacts (areas at risk)
          <bullet> Vulnerability (how and where a community built)
          <bullet> Restoration time (how long before infrastructure is 
        restored, businesses reopen, and homes are repair or replaced)
    Current disaster risk models will need to be updated to look at 
future climate driven risk.
2. What sorts of wildfire mitigation projects are the most effective at 
        reducing the risks and costs of wildfires? What can the federal 
        government do to encourage communities to undertake wildfire 
        mitigation projects?
    In three board areas that can reduce the losses of life and 
structures in the wildland urban interface or WUI:
          <bullet> Model building and development codes for development 
        in the WUI.<SUP>iii</SUP>
          <bullet> Fuel reduction <SUP>iv</SUP>
          <bullet> Homeowner Actions to maintain defensible space 
        around their home <SUP>v</SUP>
    The National Fire Protection Association Firewise program developed 
guides for homeowners and communities to reduce the risk and impacts of 
wildfire in the WUI.<SUP>vi</SUP>
3. How well do the model codes address the impacts of climate change, 
        including flood and wildfire risks?
    We have seen where enhanced building codes have reduce the impacts 
of major hurricanes in the Florida Keys during Hurricane Irma and the 
epic wildfires of 2017 and 2018 in California.<SUP>vii</SUP>
    Current building codes should be seen as a minimum standard, they 
are often based on past hazard events. This was evident during 
Hurricane Michael in 2018, the area of impact used a lower wind 
standard than the rest of Florida based on the past history of 
hurricanes on the region.<SUP>viii</SUP>
    With Climate Change increasing the risk of more extreme weather 
hazards, building codes based on past weather risk history will not 
build resilient communities.
    The Institute for Business and Home Safety (IBHS) has developed a 
standard called Fortified that uses current building codes as the 
minimum and enhances the code for specific hazards related to 
Hurricanes and strong winds. From their web site ``FORTIFIED is a 
nationally recognized building method that goes beyond building codes 
to strengthen residential and commercial buildings against specific 
natural hazards such as high winds and hurricanes. FORTIFIED standards 
are based on more than 20 years of scientific research and real-world 
testing by IBHS.'' <SUP>ix</SUP>
4. How can Congress redesign federal disaster assistance to move funds 
        more quickly while also assuring more resilient outcomes?
    1. Provide guidance to federal agencies to balance oversight with 
speed of approval of funding projects under federal review.
    2. Provide HUD with authority to permanently authorize the 
Community Development Block Grant--Disaster Recovery (CDBG-DR) Program. 
From the GAO ``Without permanent statutory authority and regulations 
such as those that govern other disaster assistance programs, CDBG-DR 
appropriations require HUD to customize grant requirements for each 
disaster in Federal Register notices--a time-consuming process that has 
delayed the disbursement of funds. In a July 2018 report, the HUD 
Office of Inspector General found that as of September 2017, HUD used 
61 notices to oversee 112 active CDBG-DR grants. Officials from one of 
the 2017 grantees told us that it was challenging to manage the 
multiple CDBG-DR grants it has received over the years because of the 
different rules. CDBG-DR grantees have faced additional challenges such 
as the need to coordinate the use of CDBG-DR funds with other disaster 
recovery programs that are initiated at different times and 
administered by other agencies. HUD officials said that permanently 
authorizing CDBG-DR would allow HUD to issue permanent regulations for 
disaster recovery. Permanent statutory authority could help address the 
challenges grantees face in meeting customized grant requirements for 
each disaster, such as funding lags, varying requirements, and 
coordination with multiple programs. The expected increase in the 
frequency and intensity of extreme weather events underscores the need 
for a permanent program to address unmet disaster needs.
    3. Establish by legislation the requirements of the former 
Executive Order 13690 and the Federal Flood Risk Management Standard 
for federal grant program involving the construction of infrastructure 
and buildings in flood prone areas.
    The FFRMS gave agencies the flexibility to select one of three 
approaches for establishing the flood elevation and hazard area they 
use in siting, design, and construction. They could:
          <bullet> Use data and methods informed by best-available, 
        actionable climate science;
          <bullet> Build two feet above the 100-year (1%-annual-chance) 
        flood elevation for standard projects, and three feet above for 
        critical buildings like hospitals and evacuation centers; or
          <bullet> Build to the 500-year (0.2%-annual-chance) flood 
        elevation.
                               references
    <SUP>i</SUP> Wildfire's destruction of California town creates 
uncharted credit territory https://www.bondbuyer.com/news/california-
wildfire-destruction-may-devastate-credits.
    <SUP>ii</SUP> With 80 percent destroyed by Hurricane Michael, 
Mexico Beach struggles to stay livable https://www.wdrb.com/in-depth/
with-percent-destroyed-by-hurricane-michael-mexico-beach-struggles-to/
article_efab6e5c-33da-11e9-93e5-c75d91998d95.html.
    <SUP>iii</SUP> Institute of Business and Home Safety--IBHS supports 
the use of wildland-urban interface (WUI) codes to help reduce the 
potential for wildland fires to spread into the built environment.
    The Wildfire Codes & Standards--State-by-State Reference Guide is a 
comprehensive assessment of wildfire building codes in each of the 50 
states. In addition to the assessment of wildfire-focused codes in each 
state, the members-only guide includes a glossary of wildfire 
terminology and IBHS guidance on wildfire-resistant building 
construction.
    Key Findings
          <bullet> Only four states have WUI specific building codes 
        adopted statewide
          <bullet> Eight states have guidelines or programs to reduce 
        wildfire risk
          <bullet> Where WUI codes exist, enforcement of those codes 
        remains a challenge
          <bullet> https://ibhs.org/wildfire/wildfire-building-codes-
        and-standards/
    <SUP>iv</SUP> California In a 45-Day Report to Governor Gavin 
Newsom in response to Executive Order N-05-19, CAL FIRE systematically 
identified high priority fuels reduction projects and other measures to 
immediately begin to protect over 200 of California's most wildfire-
vulnerable communities and put the state on a path toward long-term 
wildfire prevention and forest health. https://www.fire.ca.gov/about-
us/45-day-report/.
    <SUP>v</SUP> Example from Institute of Business and Home Safety 
(IBHS)
          Create Defensible Space.
          Maintain 3 zones around your structure, collectively called 
        defensible space.
          <bullet> Remove dead vegetation.
          <bullet> Trim branches overhanging roof.
          <bullet> Remove combustible materials in the 0-5 FT zone.
    <SUP>vi</SUP> NFPA's Firewise USA<Register> program teaches people 
how to adapt to living with wildfire and encourages neighbors to work 
together and take action now to prevent losses. www.firewise.org.
    <SUP>vii</SUP> Keys homes, battered but standing, may be a model 
for reducing damage 
in Florida https://www.miamiherald.com/news/weather/hurricane/
article173408496 .html.

    California Wildfire Building Codes
    How a building code change could be a pivotal moment in 
California's wildfire fire https://www.denverpost.com/2019/04/11/
california-building-code-wildfires/.
    <SUP>viii</SUP> Hurricane Michael exposes building-code weakness in 
Florida's Panhandle.
    Until 2007, building-code standards for windstorm resistance were 
more rigorous in South Florida than in the Panhandle, where major 
hurricanes have been rare https://therealdeal.com/miami/2018/10/13/
hurricane-michael-exposes-building-code-weakness-in-floridas-
panhandle/.
    <SUP>ix</SUP> Fortified Home--A National Standard for Resilient 
Construction https://fortifiedhome.org/.

                        Questions for the Record

                         The Hon. Alice C. Hill

                Senior Fellow for Climate Change Policy

                      Council on Foreign Relations

                       the honorable kathy castor
1. You discussed in your testimony the role of building codes in 
        community resilience. How well do the model codes address the 
        impacts of climate change, including flood and wildfire risks?
    Model building codes in the United States do not yet address the 
impacts of climate change. The codes tend to rely on historical weather 
events to account for risk and focus on life/safety rather than 
building performance. Efforts are underway to create climate-resilient 
building codes, but it may be years before such model codes exist.
2. How should Congress define resilience and integrate resilience into 
        the laws we are enacting? How can we better prioritize federal 
        investments around measurable resilient outcomes?
    The federal government currently uses multiple definitions for the 
word ``resilience.'' The Disaster Recovery Reform Act of 2018 directed 
the Federal Emergency Management Administration to issue a rulemaking 
defining the term. This is a welcome development. Any definition of the 
term must, however, specifically account for future impacts of climate 
change. One definition that would accomplish this is: ``the capacity to 
reduce, absorb, and recover from events, including the future impacts 
of climate change.'' Without consideration of future risk, resilience 
efforts will prove futile in the face of worsening climate impacts.
    Federal-wide adoption of a common scoring system to measure the 
resilience of particular investments would assist in the prioritization 
of those investments. Projects receiving the highest score could 
receive funding priority.
3. In your testimony, you discussed the role of communities in managing 
        land use and the challenges that communities are facing when 
        the available maps of flood and wildfire risk do not consider 
        climate change and the conditions communities will face in the 
        future. How important are maps that show climate risks into the 
        future to community land use and zoning decisions? How can the 
        Federal government help address these challenges?
    Maps can assist in identifying areas at high risk from climate 
change impacts. Maps can also help state, local, and federal decision-
makers, as well as ordinary citizens, better evaluate whether taxpayer 
dollars should support new or continuing investment in high-risk areas.
    The federal government should undertake a nation-wide effort to 
develop maps that reflect future risk from climate change. A good place 
to start would be accurate mapping of future risk from flood and 
wildfire. The federal government should also commit to updating these 
maps on a routine basis such as every five years.
4. How can Congress increase community insurability and the use by 
        communities of private insurance for assets that would be 
        insured if they were privately owned, such as buildings?
    Congress can increase community insurability by providing 
incentives to states to permit the use of models of future risk to 
determine insurance pricing. Incentives could take the form of making 
available additional levels of federal disaster aid, for example, if 
the state permitted the use of future modelling to help determine 
pricing. In the absence of insurance pricing that reflects future risk, 
current pricing practices could result in underpricing insurance and 
make it less attractive for insurance companies to offer insurance in 
certain areas. The ability to consider future risk in pricing could 
ultimately increase the likelihood of insurance companies continuing to 
offer insurance.

                        Questions for the Record

                             Chad Berginnis

                           Executive Director

                Association of State Floodplain Managers

                       the honorable kathy castor
1. What is the appropriate role for the federal government in managing 
        flood risk?
    The federal government has multiple roles in managing flood risk. 
Three primary roles are listed below. Perhaps the most important role 
is the provision of data and information. Given the large reach of 
federal agencies, data is key to effective decision making. That is why 
ASFPM wholeheartedly supports FEMA's National Flood Mapping Program, 
the USGS 3DEP program to collect LIDAR (topography) for the nation, 
USGS and NWS streamgaging, and the Digital Coast Act (which focuses on 
curating coastal data sets). We testified that a critical gap or need 
is to have a robust program to update precipitation frequency 
information. While NOAA produces Atlas 14, there no substantial ongoing 
funding or mandate to have that data updated every 5-10 years which is 
what ASFPM thinks is needed.
    Another role is providing leadership through promoting effective 
standards, effective program execution, and eliminating perverse 
incentives to not be flood resilient in federal programs. In 2012, 
ASFPM research determined that over 150 federal programs had the 
potential to impact sound floodplain management objectives; however, 
not all of these are oriented to ensure long term flood resiliency. For 
example, the tax code casualty loss deduction provides relief to 
individuals who did not take the step to purchase flood insurance, even 
if they were required to. An example of a perverse incentive is the 
authorization of a new flood control project by the USACE as long as it 
meets National Economic Development objectives. This may mean, a new 
levee that is built to less than a 100-year standard versus having a 
minimum standard or requirement for levee resiliency based on public 
safety (for example the Netherlands uses a 10,000 year standard). ASFPM 
strongly supported Executive Order 13690 which would have required 
agencies to consider future flood conditions and adhere to a higher 
standard than the NFIP is presently. An example of effective program 
execution is how FEMA does not hold its on-the-ground Federal 
Coordinating Officers to account for any kind of minimum requirement 
for building hazard mitigation into public assistance programs or for 
ensuring hazard mitigation projects get to a certain state of 
development before making decisions to close or scale back Joint Field 
Offices. Yet the policy goal of both Congress and FEMA is that both 
should be implemented fully and expediently.
    Finally, a role is to provide incentives and resources to build and 
local capacity in flood risk management. The Federal government cannot 
do it all, nor should it. Flood risk management is a joint federal, 
state, local, individual and private sector responsibility. Too often 
these days federal program try to be implemented directly at the 
community level while states are either not included or overlooked. It 
is much more efficient and effective to build capacity and delegate 
authority to states.
2. What role should states play in assisting communities to build 
        resilience to climate change? Are all states capable of 
        providing such assistance? If not, how could that capability be 
        improved?
    (1) Developing more specific, downscaled data; (2) providing state 
resources through state level resilience programs, (3) developing state 
plans and standards for resilience, and (4) providing training and 
building capacity at the local level. Presently few states are capable 
of providing this assistance. However this capability could be improved 
through a mix of carrots (incentives) and sticks (penalties). For 
example, if the availability of public assistance (by far the largest 
source of post-disaster aid) was conditioned on the requirement that a 
community had to have a valid mitigation plan as well as participate in 
additional resiliency program depending on the hazards they face, they 
undoubtedly would do it (stick approach--currently if a community 
doesn't have a hazard mitigation plan the only penalty is that hazard 
mitigation funding is unavailable). In fact, many more forms of 
disaster assistance, including CDBG-DR should be tied to hazard 
resilience activities.
3. How might states and communities use information about future sea-
        level rise and flood risk to manage flood risk and reduce 
        future losses?
    In a lot of ways. ASFPM and the American Planning Association just 
released a new report \1\ on incorporating flood resilience into 
capital improvement planning (because infrastructure projects are 
typically a community's largest investment). Future Sea Level Rise 
information is beginning to be used in communities along the U.S. 
Coastline (i.e., New York City, Norfolk VA, State of California) for 
planning and to implement both land use and building standards. It is 
being used by state Department of Transportation to do long-range 
repair/replacement planning.
---------------------------------------------------------------------------
    \1\ https://www.planning.org/publications/report/9192800/.
---------------------------------------------------------------------------
4. How can federal programs that use a Benefit-Cost Analysis better 
        measure and integrate resilience into those analysis, and 
        prioritize mitigation investments toward more resilient 
        outcomes?
    A couple of thoughts. First, is that the discount rate, at least 
for FEMA's benefit-cost analysis needs to be lowered. The effect of the 
artificially high discount rate in the FEMA BCA methodology limits 
FEMA's ability to approve mitigation projects that are, in fact cost 
effective. This is a recommendation recently made in the November 2019 
FEMA National Advisory Council report \2\ which recommended the 
discount rate be lowered from 7% to 2-3%. Second, is that most benefit-
cost analysis modules do not account for social impacts.
---------------------------------------------------------------------------
    \2\ https://www.fema.gov/media-library-data/1576076713587-
c1ae1017f2adb4b836ad3db0c26d 3578/November_2019_NAC_Report_final.pdf.
---------------------------------------------------------------------------
5. How well do the consensus-based model codes address flood risk? What 
        sorts of changes would you recommend to the model codes to 
        address sea-level rise and extreme rain events? Why do you 
        think the model codes haven't integrated the sorts of freeboard 
        requirements that are already in place in so many states and 
        communities?
    While consensus based codes have progressed over the years to begin 
to more proactively address flood risk, they are still far from what is 
desirable, especially as it comes to resiliency against future flooding 
conditions. Given that two trends we are seeing in the science is that 
sea level rise estimates are likely too conservative and slow, a 
meaningful requirement should reflect the useful life of the type of 
building which the code applies. For a residential home, this may be 
well over 100 years. That means we need to begin to build estimates of 
SLR out to 2125 and beyond. Because model building codes are not land 
use codes (how to build in a risky area more safely versus whether you 
should be building there in the first place), the minimum freeboard 
requirement should be 2 feet and in coastal areas should be 3 feet. 
Critical facilities should be 3 feet or the 500-year elevation 
whichever greater. One trend ASFPM is beginning to see is communities 
adopting the 500-year flood level above the FEMA mapped floodplain as a 
proxy for future conditions. Another requirement would be to use future 
conditions floodplains especially for critical facilities.
    Model codes haven't integrated the sort of freeboard requirements 
that are already in place in many states and communities because the 
process is very hard to get forward thinking ideas approved. And this 
is typically due the outsized presence of the homebuilding industry in 
the process.
6. What are the most effective ways to assist communities so that they 
        can build resilience to climate change into their plans and 
        actions?
    The most effective way is to have FEMA map future conditions 
floodplains and include them in the package of information they give 
communities immediately. While FEMA has been required to include future 
conditions into their flood map updates as a result of the 2012 reform 
of the NFIP (after they had been advised by the TMAC as to how to do 
it), FEMA has yet to implement this future conditions requirement. As 
was answered in question 1, another aspect of this is that as a nation 
we must have a mandatory, frequent update of rainfall-frequency 
information (currently the program to update Atlas 14 does not have 
consistent funding nor a mandate). Another critical aspect is to help 
them interpret future conditions scenarios. For example, today, New 
York City is planning for 6 feet of Sea Level Rise by 2100, while the 
State of Hawaii is planning for 3.2. Why? This is partially due to the 
future condition scenario that was picked. Another effective way is to 
invest in quality datasets and tools that can be used by communities. A 
great example of this is the Digital Coast initiative by NOAA.\3\ In 
fact, ASFPM supports Congressional passage of the Digital Coast Act 
(already passed by the House) which would build success on the 
initiative.
---------------------------------------------------------------------------
    \3\ https://coast.noaa.gov/digitalcoast/.
---------------------------------------------------------------------------
7. How do communities use Hazard Mitigation Plans before and after 
        disasters? What is the relationship of Hazard Mitigation Plans 
        to comprehensive plans, zoning, and building codes?
    Hazard mitigation plans are typically developed prior to a disaster 
but are hardly ever referenced after the disaster or adjusted in the 
immediate aftermath of a disaster (which would be a best practice). 
Even worse, there has not been a lot of success integrating these plans 
into comprehensive plans, zoning, and building codes. There are 
numerous reasons for this but one of the primary ones is that hazard 
mitigation plans are often produced by the local emergency manager and 
comprehensive plans, zoning are led by the local planning department--
these silos do exist at the local level too. The FEMA publication \4\ 
Integrating Hazard Mitigation Into Local Planning pages 2-4 and 2-5 is 
a good summary of where these points of intersection and opportunities 
for integration exist.
---------------------------------------------------------------------------
    \4\ https://www.fema.gov/media-library-data/20130726-1908-25045-
0016/integrating_hazmit.pdf.
---------------------------------------------------------------------------
    In an ideal world, the hazard mitigation plan, once developed or 
updated, would be used to then feed into the update of a community 
comprehensive plan which would, in turn, lead to updated zoning and 
building code standards. A new approach, the Plan Integration for 
Resilience Scorecard or PIRS created at Texas A&M University is a hands 
on, facilitated approach that gets participation from different local 
government agencies and uses a scorecard to identify points of 
consistency and points of inconsistency. A link to a webinar on this 
approach can be found here.\5\
---------------------------------------------------------------------------
    \5\ https://www.floods.org/ace-files/training/
SLIDES_PlanIntegration_PIE_Webinar_ 10.4.2017.pdf.
---------------------------------------------------------------------------

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
